         SENSITIVE BUT UNCLASSIFIED

        United States Department of State
      and the Broadcasting Board of Governors
                Office of Inspector General




                  Report of Inspection


   Embassy Jakarta and

Consulate General Surabaya,

         Indonesia



Report Number ISP-I-05-29A, September 2005




                               IMPORTANT NOTICE
  This report is intended solely for the official use of the Department of State or the
  Broadcasting Board of Governors, or any agency or organization receiving a copy
  directly from the Office of Inspector General. No secondary distribution may be
  made, in whole or in part, outside the Department of State or the Broadcasting
  Board of Governors, by them or by other agencies or organizations, without prior
  authorization by the Inspector General. Public availability of the document will
  be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
  Improper disclosure of this report may result in criminal, civil, or administrative
  penalties.



          SENSITIVE BUT UNCLASSIFIED

                  SENSITIVE BUT UNCLASSIFIED




                            TABLE OF CONTENTS
KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

EXECUTIVE DIRECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

     Leadership . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

     Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

     The Country Team . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

     American Consulate General Surabaya . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

     American Presence Post in Medan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

POLICY AND PROGRAM IMPLEMENTATION . . . . . . . . . . . . . . . . . . . . . . . . . . .                                   13

      Tsunami Crisis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      13

      Reporting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   15

      Political Section . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     15

      Religious Freedom, Human Rights . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       16

      Economic Section . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          17

      Antiterrorism Assistance Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    19

      Public Diplomacy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          19

      Broadcasting Board of Governors . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     25

      Consular Operations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           25

RESOURCE MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   35

     Administrative Operations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                36

     Real Property . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      36

     Information Management and Information Technology

        Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    41

           Human Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46

           Financial Operations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47

           General Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49





                                  SENSITIVE BUT UNCLASSIFIED

                     SENSITIVE BUT UNCLASSIFIED




QUALITY OF LIFE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51

     Community Liaison Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51

     Medical Unit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51

MANAGEMENT CONTROLS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53

FORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61

INFORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 67

PRINCIPAL OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 73

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 75





                      SENSITIVE BUT UNCLASSIFIED

                   SENSITIVE BUT UNCLASSIFIED





                            KEY JUDGMENTS

•	 Despite strict restrictions on staffing because of the very real danger of
   terrorism against American interests, the embassy has grown 37 percent to
   1,405 employees since September 11, 2001. Most of the growth reflects an
   increase in essential security and counterterrorist staffing.
•	 Embassy Jakarta experienced perhaps its finest hour during the tsunami crisis,
   displaying American values at their best. Under the Ambassador’s hands-on
   leadership, the entire mission responded immediately during the Christmas
   weekend of 2004. The public affairs section in particular made an all out
   effort that contributed to enhancing a favorable opinion of the United States
   throughout Indonesia.
•	 The Ambassador understands the crucial role played by leadership at an
   embassy under a critical threat from terrorism. However powerful his posi­
   tion and reputation, the Ambassador’s easy-going manner relaxes the post and
   contributes enormously to strong morale.
•	 Personnel are confident that if something could be done to improve security
   the regional security officer (RSO) would do it, and the Department of State
   (Department) would be supportive. This largely explains why American
   morale is relatively good at a post that is justifiably obsessed with security.
•	 The Ambassador rightly has assessed counterterrorism as the embassy’s most
   urgent goal, engaging the combined efforts of the full mission. The
   Department’s Antiterrorism Assistance Program ($6 million for FY 2005) has
   had striking success in Indonesia, where U.S. trained personnel have contrib­
   uted tangibly to prosecuting and preventing terrorism.
•	 Political and economic reporting is timely, sufficient, and analytical. It earns
   vocal appreciation by Washington readers.
•	 Notwithstanding the hard work and conscientious efforts of the consular
   section, consular services require improvement. In Jakarta, insufficient and
   poorly organized space, thin staffing, extensive fraud, and overwhelmed
   management characterize the section. Surabaya suffers some of the same
   problems. Public access is crowded, maze-like, and an eyesore at both posts.
   Executive leadership has not paid the attention consular activities require, if
   service to the public is to improve.



OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   1 .

                   SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




      •	 U.S. facilities in Jakarta are far more secure than functional even though the
         embassy does not meet all standards. It is difficult to imagine an embassy
         that appears more unwelcoming to visitors than Jakarta’s. Construction of a
         new embassy compound is the best overall solution.
      •	 Administrative operations for the past three years have been managed well by
         a senior management counselor, a feat all the more remarkable because of an
         extended evacuation in 2003 and significant staffing gaps in several adminis­
         trative functions.
      •      The embassy’s information technology structure requires investment. (b) (2)
            (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
            (b) (2)

      •     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
            (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
            (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
            (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
            (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)

      •	     The U.S. Consulate General in Surabaya has distinguished itself in its out­
            reach to the 110 million overwhelmingly Muslim people who live in its
            district. The new American presence post in Medan has proven critical to
            supporting tsunami reconstruction efforts and, over the long term, will ensure
            coverage of the second largest island, Sumatra.
          The inspection took place in Washington, DC, between April 4 and April 29,
      2005; in Jakarta, Indonesia, between June 2 and July 1, 2005; and in Surabaya,
      Indonesia, between June 13 16, 2005. Ambassador Fernando E. Rondon (team
      leader), John J. Eddy (deputy team leader), Alan Berenson, Maria Cunningham,
      E.J. Fischer, Mary Heard, Vickie Huss, Marjorie A. Lynch, and Michael Lynch
      conducted the inspection.




2 .        OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                    SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





                                       CONTEXT

                                                           If superimposed on a map of
                                                       North America, the 17,000 islands of
                                                       Indonesia would stretch from Oregon
                                                       to Bermuda. The nation is important
                                                       to the United States for its strategic
                                                       location, population of 220 million,
                                                       and resources. With more Muslims
                                                       than the nations of the Middle East
                                                       combined, Indonesia offers a singular
                                                       opportunity for the United States to
                                                       help persuade the Islamic world that
                                                       the United States is a force for good.

    Indonesia is the target of domestic and transnational terrorism, which seeks to
thwart the country’s first real attempt at democracy and intimidate the West.
Terrorist bombings in Bali (2002), in Jakarta at the Marriott Hotel (2003), and at
the Australian Embassy (2004) are reminders of the dangers faced daily by U.S.
personnel in Indonesia.

     Indonesia was at the epicenter of the December 2004 tsunami, losing upwards
of 200,000 people. Thanks in part to mobilization by the U.S. mission in Indone­
sia, the traumatized nation immediately received an enormous outpouring of public
and private support from the United States. The Ambassador’s early insistence on
using the U.S. military accounted for much of the rescue effort’s extraordinary
impact. As a result, the tide of Indonesian public opinion, put off by the U.S.
invasion of Iraq, has shifted to a more positive view of the United States. In Aceh,
gratitude and respect towards the United States is intense. Yet the balance of
Indonesia’s national attitudes towards the United States remains delicate, affected
by the daily news cycle and perceived U.S. disrespect for Islam. Public diplomacy
could not be more important.

    Indonesia is troubled by systemic corruption, the abuse of human rights, the
poorest educational system in Southeast Asia, and weak development indicators
generally. Its bid for tiger status dissolved in the Southeast Asia financial crisis of
the late 1990’s, when it lost 14 percent of the gross domestic product in one year.


OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   3 .

                   SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




      It is now seventeenth in the world as an exporter of petroleum. But its election last
      year of a new president for the first time ever by direct franchise has encouraged
      many in the government and private sector to supply the drive heretofore missing in
      economic reforms, including reforms in the crucial areas of the judiciary and law
      enforcement. An immediate benefit of reform was the letter of intent to purchase
      $3.9 billion of Boeing aircraft, a sale in which the U.S. embassy played an active
      role.

          Indonesia’s efforts to provide legislative clarity and consistency in applying the
      law should, if persevered, strengthen Indonesia’s internal security, assist badly
      needed economic development, and help to coax private investment into produc­
      tive channels. In all of these endeavors, U.S. agencies are supplying vigorous,
      effective support to Indonesia across a broad spectrum.

          Mission Jakarta is one of the largest U.S. diplomatic missions worldwide.
      Staffing by the Department and 10 other agencies exceeds 1,400 U.S. and locally
      employed staff (LES). Funds managed for all clients in FY 2005 are estimated to
      exceed $34 million. In addition, programs of the U.S. Agency for International
      Development (USAID) are estimated at $129 million.




4 .     OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                 SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





                     EXECUTIVE DIRECTION

    Indonesia’s direct presidential elections and the U.S.’s dramatic response to the
tsunami have positioned both countries to engineer a real change in a relationship
that has experienced considerable volatility. In a way, the United States and Indo­
nesia are trying to start over again, and the stakes are considerable as Americans
reach out to this huge Muslim nation and Indonesians grasp a U.S. hand offered in
friendship.

    Notwithstanding strict restrictions on staffing because of the very real danger
of terrorism against American interests, the embassy has grown 37 percent to 1,405
employees since September 11, 2001. Most of the growth reflects an increase in
essential security and counterterrorist staffing, but there is also program and related
employee growth in priority policy areas, such as USAID’s robust development and
humanitarian reconstruction portfolios. Further information on staffing totals is in
the Resource Management section of this report.




LEADERSHIP
    A career officer with a lifetime of Eurasian and Department experience heads
the U.S. effort in Indonesia. He is an Ambassador who knows how to get things
done bureaucratically, as he demonstrated so convincingly during the rush to assist
the tsunami victims. He is also an Ambassador who understands the crucial role
played by leadership at an embassy under a critical threat from terrorism. However

OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   5 .

                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




      powerful his position and reputation, the Ambassador’s easy-going manner relaxes
      the post and contributes enormously to strong morale. An able deputy chief of
      mission (DCM) with a good sense of humor and two first-rate office management
      specialists add to what is a happy, productive front office team. Executive leader­
      ship has not, however, paid the attention consular activities require if service to
      the public is to improve.

      Morale

          Job satisfaction appears very high because personnel feel their work makes a
      difference, be it in terms of USAID employees assisting the tsunami region, politi­
      cal section employees trying to educate Washington on the facts of this changing
      Islamic nation, or security officers heartened by the work of graduates of the
      Department’s Antiterrorism Assistance Program. A heavy workload, oppressive
      traffic, and pollution gnaw on morale, but what really upsets people is the threat of
      another evacuation. As one senior officer stated, more families seem to fear an
      ordered departure than the terrorist Jemaah Islamiyah organization. With still
      lingering memories of the 2002/2003 evacuation and unfortunate memories of
      marital rift, family separations, and disrupted schooling, morale skips a heartbeat
      every time the embassy has to close because of security threats. The inspectors
      arrived right after a three-day closure and rumors that the Americans were leaving,
      notwithstanding widely disseminated post notices to the contrary. Family morale
      suffered, with most dependents knowing that an evacuation has its own hidden
      dangers, and many believing they are reasonably safe in their Jakarta homes.
           (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
      (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
      (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
      (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
      (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
      (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
      (b) (2)




      SECURITY
          No subject is more important to the embassy’s leadership than security. It is
      reviewed more closely in an accompanying, classified annex, but personnel from all
      agencies went out of their way to single out the RSO as the most admired official
      in the mission below the executive level. Personnel felt that he cares about their


6 .      OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




safety but also understands the importance of their work. All praised what they
perceived to be a highly effective security program. Personnel are confident that if
something could be done to improve security the RSO would do it, and the Depart­
ment would support him. This largely explains why American morale is relatively
so good at a post that is justifiably obsessed with security. OIG was told there is
no reason to assume that the terrorist threat will ebb anytime soon.



THE COUNTRY TEAM
    The Ambassador and DCM provide strong country team oversight. Although
he had been at post for only six months, the Ambassador took such rapid, effective
command of the tsunami crisis that there was no doubt whatsoever who was in
charge. He meets almost daily with senior personnel, knows how to listen or
decide, and operates with a door that is really open. He does not get bogged down
in minutiae.

    Country team agencies, for the most part, work together cooperatively. The
counterterrorist and law enforcement clusters are particularly effective. The
economic and commercial grouping still needs a bit of reminding that the Depart­
ment, USAID, and the Departments of Commerce and Agriculture should pull
together. Mutual respect runs high among all members of what is an impressive
group of U.S. officers across all agencies.

Mission Performance Plan

     All sections and agencies were involved in the preparation of the FY 2007
Mission Performance Plan (MPP). The MPP earned the Department’s compliments
as well as some thoughtful commentary on many aspects of the plan. Washington
participants highlighted the need to replace the chancery building, wanted corrup­
tion mentioned more prominently, and felt the embassy should have given itself
more credit for 2004 accomplishments. Additionally, Department participants
called for restructuring the economic growth and development goal, with logic on
the Department’s side, but the marginal value of more drafting is clearly question­
able. Essentially, the busy embassy responded, “next year.”

    In Jakarta, one key embassy participant felt that the MPP process had become
much too complicated and lengthy and consumes an inordinate amount of time and
effort. The participant called for simplification and more emphasis on a good Chief



OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   7 .

                   SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




      of Mission statement with some explanatory annexes. It is difficult to disagree with
      this assessment when a reader has to wrestle with Jakarta’s 111-page document.

          The Ambassador rightly has assessed counterterrorism as the embassy’s most
      urgent goal, engaging the combined efforts of the full mission. The Department’s
      Antiterrorism Assistance Program ($6 million for FY 2005) has had striking success
      in Indonesia, where U.S. trained personnel have contributed tangibly to prosecuting
      and preventing terrorism. Under the International Criminal Investigative Training
      Assistance Program of the Department of Justice, the embassy is training maritime
      police ($1 million annually) with the aim of interdicting terrorism, piracy, and other
      threats in the vital Straits of Malacca. Consular fraud is also receiving attention in
      an effort to prevent the infiltration of terrorists from Indonesia into the United
      States.

          U.S. citizen protection ranks as the MPP’s second goal, although this essential
      embassy responsibility naturally follows the first goal. Post leadership proactively
      reaches out to the American community throughout Indonesia, as discussed further
      under the consular portion of this report.

          Building on Indonesia’s 2004 elections, the third goal underlines democratic
      systems and practices. Little could be more important for Indonesia than its trans­
      formation into a functioning democracy with all that entails in terms of parliamen­
      tary, ministerial, police, and judicial institutions. USAID will contribute $32.5
      million to this goal in FY 2005. The promotion of civilian control over, and
      reform of, Indonesia’s security forces is a key to a long-term bilateral relationship,
      one that is very difficult as an ongoing history of human rights abuses makes the
      United States cautious of the Indonesian security forces. Nonengagement of the
      Indonesian military would appear, however, to be an unwanted option for a United
      States that finds itself so embattled in other areas of the Islamic world and needs
      constructive dialogue with Islamic militaries. Nonlethal military training assistance
      will represent approximately $2 million in FY 2005 and is subject to various legal
      restrictions. Indonesia, for example, needs to act more forcefully to find and arrest
      the murderers of two American teachers in Papua who some have thought were
      members of the Indonesian security forces.1 Human rights issues are discussed
      more fully in the next section of this report.


      1
        On August 31, 2002, unknown assailants attacked a group of Americans and Indonesians in
      Timika, Papua. Two Americans and an Indonesian were killed, and 11 persons were wounded. The
      Federal Bureau of Investigation is assisting Indonesia to discover the identity of the murderers.
      The Timika case, as well as Indonesian atrocities committed in East Timor in the late nineties, have
      led Congress to restrict assistance to the Indonesian security forces.


8 .       OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                   SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



    A fourth goal is basic to Indonesia’s future: access to quality education.
USAID’s multi-year commitment to this program will total $157 million. The
public affairs section is an active participant in the education program, using about
$1.5 million in economic support funds to promote teacher training and student
exchange programs.

    The fifth goal promotes sustainable economic growth and development. USAID
will support basic human services with $48.5 million plus $14 million in food aid in
FY 2005. USAID will also contribute $17 million to economic growth and employ­
ment creation. U.S. commercial interests are discussed in this category. Although
Indonesia is an enormous country, to date it is not a major market for American
exports. Two-way trade is about $12 billion, but $10 billion of that represents
American imports. The 2005 $3.9 billion sale of 60 Boeing aircraft represented a
major embassy-commercial service team effort, a success that would have been
unlikely a few years back.

    A sixth goal calls for safe, secure, and functional facilities at this burgeoning
mission. U.S. facilities in Jakarta appear far more secure than functional, a subject
discussed under Resource Management. It is difficult to imagine an embassy that
appears more unwelcoming to visitors than Jakarta’s. Consular visitors not only
have to face complex application documents, they first must traverse a cluttered
and dirty holding area outside the chancery compound and then an obstacle course
before encountering consular officers.

    Although it is an integral component of almost every MPP goal, public diplo­
macy in what is the world’s largest Islamic nation is featured perhaps unnecessarily
as a seventh goal. The U.S. response to disaster prone Indonesia appears as an
eighth, humanitarian goal. USAID’s tsunami response will represent about $750
million over five years, including a major road building effort. The public affairs
section worked closely with the U.S. military assisting Indonesia after the tsunami.
The public affairs section must now work cooperatively with USAID in assuring
that this island country is aware of American generosity.

Entry-Level Personnel

    Embassy Jakarta has 19 entry-level employees. The DCM invites all entry-level
personnel to a monthly meeting with speakers and meets individually with the 10
entry-level officers. The latter have a comfortable, productive mentoring relation­
ship with the DCM. At this large post, however, entry-level personnel are usually
rated and reviewed in their individual sections.



OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   9 .

                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



       AMERICAN CONSULATE GENERAL SURABAYA
            Consulate General Surabaya has nine Department positions and an operating
       budget of somewhat under $1 million. It has a distinguished history of providing
       U.S. presence, outreach, and reporting in the mass population centers and remote
       islands of eastern Indonesia. The consular district is home to 110 million people,
       of which most are Muslim, spread over an area the size of Europe.

           The post’s value today is more evident than ever as the United States seeks to
       enlist Muslim understanding of its policies in the global war on terror. Through
       good management and a culturally sensitive, vigorous communications program,
       the post has influenced great numbers of largely peaceful but skeptical Indonesians
       toward a more open-minded view of U.S. actions in places like Iraq. Tracked by an
       uninformed, sometimes hostile media, the post has succeeded beyond what one
       might expect of a very small staff traveling difficult island waters and terrain
       among murderous radicals. The Bali bombings of 2002 occurred within the consu­
       lar district. Security is a large consideration at the post and is covered in a separate
       classified report.

           Immediately after the election of the new chairman of the largest Muslim
       organization in Indonesia, the consul general met with him and reported his assess­
       ment of current Indonesian Muslim attitudes towards radical Islam. The staff has
       spoken in Bahasa Indonesian on Islamic radio, visited Islamic boarding schools,
       judged debates at Islamic high schools, and provided responsible consular services.
       All of these achievements are attributable in part to excellent morale fostered by
       the consul general’s personal mentoring of American and FSN staff.

           Reporting, though lacking in volume, has been very useful in such areas as the
       political dynamics in areas of potential unrest such as Sulawesi and Maluku,
       political parties, and economic issues related to decentralization.

           Consulate General Surabaya closely supervises a reinvigorated consular agency
       in Denpasar, Bali. Approximately 60,000 Americans visit Bali during the tourist
       season, and about 400 U.S. citizens live in the area. The consular agency played an
       important role in the aftermath of the 2002 Bali bombings. A responsive consular
       agent visits arrested and imprisoned American citizens, assists with federal benefits,
       provides voting information, works on death and estate cases, and performs other
       consular services.




10 .     OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



AMERICAN PRESENCE POST IN MEDAN
    In 1996, the U.S. government closed the American Consulate in Medan, first
established in 1851, for budgetary reasons. As early as 1998, the Department
began trying to reopen the post, a position vindicated in a completely unexpected
way when the tsunami struck. The Medan office sent in the first ground reports
and has since proved that a U.S. presence in Medan can significantly support the
reconstruction effort. Such a presence was always desirable because of the need to
cover Indonesia’s second largest island, Sumatra, a source of the country’s leader­
ship as well as a region rich in resources. The province of Aceh in the proposed
consular district harbors a violent separatist movement.

     Within a month of the tsunami Congress decided to reestablish the consulate,
and in March the government of Indonesia concurred. The Department is now in
the process of reopening the consulate as an American presence post with two
American employees. The head of the office was officially reassigned as principal
officer during the inspection.

     There could hardly have been a head of the Medan office better equipped by
skills and temperament to be the first responder to this unthinkable crisis. In the
tumultuously confused circumstances, he called in what he thought was most
urgently needed. For a critical period, he was the most informed U.S. government
official and the only one on the ground. As the U.S. military quickly arrived, and
the crescendo of U.S. and international aid swelled, he was able to direct new
arrivals to needed materials and the right local Indonesian officials.

    Assisted by an Indonesian employee, the head of the Medan office has contin­
ued to travel up and down Aceh and send in reports, not on reconstruction alone
but on how reconstruction will impact the position of Aceh separatists in the
ongoing Helsinki talks for reconciliation between the separatists and the Indonesian
government. The separatists, who have employed violence in the past, are a
strongly conservative group who want to impose Sharia law and have previously
demanded independence. They have found it politically advantageous not to
hinder reconstruction and had already moderated their claims to independence.




OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   11 .

                   SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED





12 .   OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





                     POLICY AND PROGRAM
                       IMPLEMENTATION


     At the time of the inspection Department operations were just returning to a
degree of normalcy after the tsunami and its immediate aftermath. Notwithstand­
ing the enormous workload generated by the tsunami response, the embassy contin­
ued to produce exceptional political and economic reporting and carry out its other
duties. Security concerns were ever present and received full attention. No appre­
ciation of the U.S. mission’s overall performance is possible without a brief summa­
tion of its conduct during one of the greatest natural disasters in recorded history.



TSUNAMI CRISIS
     Embassy Jakarta experienced perhaps its finest hour during the tsunami crisis,
displaying American values at their best. Under the Ambassador’s hands-on leader­
ship, the entire mission responded immediately and fully during the Christmas
weekend. One officer described the
Ambassador’s leadership as inspiring. No
less impressive was the DCM’s perfor­
mance as crisis manager. Throughout the
critical response period, he kept everyone’s
morale at high levels. The U.S. response
was truly humanitarian and intended to
help suffering people, yet it resulted in a
measurable increase in positive attitudes
towards the United States by Indonesians
as described in the public diplomacy
section of this report. The epicenter of the
earthquake causing the tsunami was about
60 miles from the west coast of Aceh
province on the northwest tip of Sumatra.
Thirty-foot high waves hit the crowded
center of the provincial capital of Banda
Aceh and passed south down the Straits of Malacca. The result was a virtually


OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   13 .

                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




       destroyed coastline. In many towns and villages concrete pads are all that was left
       of substantial structures, while scattered corrugated iron roofs crumpled like paper
       were the only evidence of flimsier houses. The Indonesian Ministry of Health
       confirmed 128,790 deaths with 37,063 missing and 532,898 displaced.

           The devastating tsunami struck Indonesia on Sunday, December 26, 2004.
       Although the full extent of the devastation was unknown for over a week, the
       mission began preparations to address what it thought was a much smaller disaster
       on December 26. As the facts became known, the mission focused on relief
       assistance for about three months and continues to work toward long term rebuild­
       ing. USAID and the U.S. military were key players in the success, but virtually all
       embassy elements made significant contributions. The public affairs, political,
       economic, and management sections provided superb support. Most staff worked
       seven days a week for about the first six weeks.

           The unprecedented natural disaster and ensuing humanitarian disaster relief
       operations attracted overwhelming media attention. It was like nothing the mission
       had seen before. The public affairs section tracked approximately 250 news reports
       from major international media on U.S. relief efforts in Aceh. There were 14
       editorials in prominent Indonesian publications covering the U.S. assistance. Indo­
       nesian dailies ran 28 photographs depicting U.S. military humanitarian assistance to
       the tsunami victims. There were 25 general interest stories about U.S. government
       humanitarian relief activities carried by Indonesian print publications unrelated to
       embassy or military generated activities. Television broadcast 30 general interest
       stories about U.S. assistance. Many highlighted U.S. helicopter relief flights as an
       effective means to distribute aid to isolated areas, and to transport those injured to
       Banda Aceh for medical care. The reports often mentioned that there were ap­
       proximately 13,000 U.S. troops deployed to help and 365 tons of food delivered
       through 450 flights.

           On March 28, 2005, an earthquake struck the islands of Nias and Simeulue
       adding further devastation to Indonesia and resulting in 394 deaths with 34,000
       others losing their homes. The United States quickly responded to this disaster. By
       early April, USAID had already provided $585,000 for activities relating to health.




14 .     OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



REPORTING
     One Department official had this comment about political and economic
reporting from Indonesia: “I wake up in the morning and wonder what I would say
if someone were to call me on a particular issue. I get to the office to find an
embassy cable with the answer.”



POLITICAL SECTION
   Besides a stream of excellent, sustained reporting across Indonesia’s political
spectrum, Jakarta’s large, 16-officer political section is deeply involved in the
programmatic and operational aspects of counterterrorism. Section management is
competent and knowledgeable and demonstrates concern for the development of
subordinates. Ironically, the subordinates themselves seem unaware of the political
counselor’s strong private advocacy for them. Morale is high based on the admiring
comments received from outside the section.

    The section is remarkable for the timeliness of its reporting. It has a tradition
of same-day cables after a reportable event or conversation. Drafting is generally
incisive, analytical, compact, and proportional. Biographic reporting is insufficient
in volume, but some of it is among the best OIG has seen, especially on the leader­
ship of Indonesia. Reporting officers travel widely. Representational work is
targeted and frequent. Officers favor one-on-one luncheons as more cost effective
than receptions. In June, one officer typically submitted eight representational
vouchers for a two-week period, or, as he put it, $20 a cable.

     The section is unusually involved in operational matters; for example, the
initiation and fiscal oversight of training seminars in counterterrorism. Political
officers have brought together police and prosecutors in programs that led to the
incarceration and successful prosecution of terrorists and have created major
training opportunities in coordination with friendly governments for the criminal
justice sector. The section designs, coordinates, and monitors multi-million dollar
programs to combat trafficking in persons. It manages the U.S. role in the Aceh
peace talks and is heavily engaged in promoting necessary changes in the military to
military relationship to reflect current realities of Indonesian democracy. Working
with U.S. and Indonesian law enforcement agencies, the section is actively facilitat­
ing Indonesian cooperation with U.S. investigation of the murder of two U.S.
citizens in Timika, Papua in 2002.



OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   15 .

                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



           The section is also somewhat unusual in the degree of its involvement in
       vetting or evaluation of Indonesian police and military who are candidates for
       training in the United States funded by U.S. security assistance. Since 1998, the
       Leahy Amendment has provided that Congressionally appropriated funds may not
       be made available to any unit of a foreign country’s security forces if the Secretary
       of State has credible evidence that such a unit has committed gross human rights
       violations, unless certain conditions have been met. In practical terms the amend­
       ment has required a close look at Indonesian killings at the time of the United
       Nations referendum on the independence of East Timor, held in 1999. There have
       been other cases in which Indonesian security forces have been involved in, or
       suspected of, human rights abuses.

           Vetting has reached a volume of 5,000 cases a year. The section is concerned
       that changes in procedures now being discussed in the Department might compli­
       cate the procedures unduly without necessarily making them more effective and
       result in the loss of unused program funds. The political section has been unsuc­
       cessful in its attempts to initiate a dialogue with the Department to discuss such
       matters. The Department has never answered the post’s comments and queries on
       the planned changes.


          Recommendation 1: Embassy Jakarta should resubmit its comments and
          questions on vetting Indonesian police and military who are candidates for
          U.S. training to the Department, and the Department should respond. (Ac­
          tion: Embassy Jakarta, in coordination with DRL, PM, and EAP)




       RELIGIOUS FREEDOM, HUMAN RIGHTS
           Despite having the largest Muslim population in the world, Indonesia is not an
       Islamic state. In general, the Indonesian government respects beliefs other than
       Islam. However, the Ministry of Religious Affairs extends official status to only
       five faiths: Islam, Catholicism, Protestantism, Hinduism, and Buddhism. The
       government bans proselytizing because it considers such activity disruptive. Given
       this constraint most of the population enjoyed a high degree of religious freedom.
       Shariah or Islamic law is authorized only in Aceh province. Sporadic incidents of
       sectarian violence occurred in Central Sulawesi and the Moluccas in 2004 but at
       lower rates than in previous years. Embassy staff regularly engage Indonesian
       government officials on religious freedom issues and also meet with religious
       leaders and human rights campaigners to promote respect for religious freedom.


16 .     OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




They also provide clear reports to the Department on these issues as the situation
warrants. Mission outreach emphasizes the importance of religious freedom and
tolerance in a democratic society. Details of these efforts are described in the
public diplomacy section of the report.

    Indonesia’s record on human rights issues is poor. Government agents commit­
ted abuses, particularly in areas of separatist conflict. Military and police officials
used excessive force against rebels and suspected rebels resulting at times in death.
However, during 2004, Indonesia held free, fair national presidential elections
followed by a peaceful transition from the former government to the newly elected
one. This strengthening of democracy bodes well for improvements in the area of
human rights. The Ambassador and other embassy officials are actively advocating
for the protection of human rights and monitoring the situation. The embassy
reports on human rights at least monthly. USAID provides about $1 million a year
to local human rights groups for programs advocating tolerance and pluralism.

Trafficking in Persons

    Trafficking in persons is a major problem for Indonesia, particularly of girls and
women for the sex trade. The points of destination for trafficked individuals
include domestic cities as well as Middle East and Asian countries with significant
numbers going to Malaysia. Reliable figures are not available. The Indonesian
government has an action plan to control trafficking in persons and is serious about
addressing this issue. The mission is coordinating a $13 million a year program to
combat the problem with the public affairs section, USAID, and the Department of
Justice cooperating in the effort. As part of an outreach campaign, the public
affairs section developed a comic book and related announcement to be distributed
with packaged food in an effort to reach the younger, less educated population
most at risk of victimization in trafficking. On the governmental level, public
affairs sent four international visitors who are working on trafficking to the United
States in FY 2005.



ECONOMIC SECTION
    The economic section is heavily engaged in activities related to reconstruction
efforts after the tsunami. Though USAID has taken the lead position and borne the
brunt of the work, the economic section has played an important coordinating role
and has assisted various U.S. economic agencies in programming their funds.



OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   17 .

                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



            Other significant operational areas for the economic section have been mari­
       time security, health, and nuclear safeguards. An officer has regularly visited ports
       between visits of more technically qualified U.S. experts and checked on circum­
       stances that might endanger the safety of cargo destined for the United States. For
       example, the officer protested to Indonesian authorities when the officer encoun­
       tered teenagers lounging around restricted areas. The environment, science and
       technology, and health officer, who is completely integrated in the section, recently
       visited a pig farm to gauge for himself, as a nonexpert, the extent to which poultry
       in the cages with wire floors might infect the pigs kept below with deadly avian flu.
       The officer has also visited Indonesia’s three nuclear sites to investigate the safe­
       guarding of nuclear and radiological materials.

           The economic counselor has demonstrated an exceptional ability and willing­
       ness to delegate. He visibly instills a great sense of responsibility in all of his
       officers and leaves them plenty of running room. His knowledge and general skills
       command great respect throughout the mission.

           Economic reporting is analytical and thorough, with high-value mass. The
       section has sought within the time constraints to initiate think pieces, for example,
       a report on Indonesia’s long-term future as an oil producer and another on illegal
       activities in the critical logging sector. OIG observed that, given the burden of
       operational responsibilities, which leaves less time for reporting, section manage­
       ment has shown good judgment in selecting topics for elective reporting. The fact
       that 90 percent of the section’s reporting is elective rather than a required response
       to the Department, indicates that the section’s submissions are meeting the
       Department’s needs.

           The DCM chairs an economic coordination or economic cluster meeting ap­
       proximately every two weeks with representatives of the economic section,
       USAID, the Foreign Commercial Service, and the Foreign Agricultural Service.
       These are experienced officers who recognize the benefits of sharing information
       and coordinating their efforts, yet OIG observed that the exchange of information
       might be improved. The dynamic Foreign Commercial Service unit, for example,
       though well disposed towards interagency cooperation, is sometimes forgotten
       because of the distance between itself and the chancery. In efforts to assist Indo­
       nesia on port security, USAID was attempting to give equipment to ports at the
       same time the Foreign Commercial Service was trying to sell it. The well-qualified
       FSNs of the respective agencies seem barely to know each other. OIG recom­
       mended informally that the mission organize an economic off-site conference to
       encourage an even more unified mission approach to economic, commercial,
       agricultural, and developmental issues. This might help to diminish the sense of
       separateness that having offices in different buildings engenders.

18 .     OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



    The fact that economic coordination at the mission works in the most impor­
tant instances got resounding proof in the recent sale of $3.9 billion in Boeing
aircraft to a private airline in Indonesia. The Foreign Commercial Service had the
lead, but the Ambassador stepped in when critical intervention with the Indonesian
government was necessary to ensure a fair decision, and other officers helped where
they could.



ANTITERRORISM ASSISTANCE PROGRAM
    The regional security officer monitors the multi-million dollar Antiterrorism
Assistance Program launched in 2003 by the Bureau of Diplomatic Security (DS).
Its purpose is to train members of the Indonesian National Police. The post has
received about $18 million in supplemental funding since inception of the in-
country program. The program has trained and equipped 156 Indonesian national
police officers, providing them with the capability to conduct and sustain their own
antiterrorism training program.

    Program graduates assisted in the arrest of over 165 Jemaah Islamiyah mem­
bers, including almost all of the direct perpetrators of the Bali, Marriott, and
Australian Embassy bombings. They have been involved in all major bomb blast
investigations, tracking terrorist movements on the Malaysia/Indonesia border, and
the Sukabumi bomb investigations, which led to the arrest of four perpetrators of
the Australian Embassy bombing. OIG visited the Antiterrorism Assistance
Program training facility and found the overall management and operational effec­
tiveness excellent.



PUBLIC DIPLOMACY
    The public affairs section responded enthusiastically and effectively during the
tsunami crisis making an all out effort that contributed to enhancing a favorable
opinion of the United States throughout Indonesia. Opinion polls conducted by
the Department’s Bureau of Intelligence and Research between December 30, 2004
and February 6, 2005, revealed a substantial increase in a favorable view of the
United States among urban Indonesians. The survey showed 55 percent have an
overall favorable opinion, up from a low of 30 percent in July 2003. In addition,
90 percent were aware of American assistance in tsunami relief. A Pew Global
Attitudes Survey conducted between April 20 and May 31, 2005 found 79 percent
of Indonesians had a more favorable view of the United States as a result of the

OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   19 .

                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



       aid. Discussing anti-Americanism in various countries, the survey stated, “But
       there are some very positive signs of progress in India and Russia and Indonesia.”
       While these polls do not measure the performance of the public affairs section,
       they do highlight the opportunity that exists to achieve progress in influencing
       Indonesian public opinion. Moreover, anecdotal evidence indicates that efforts by
       the public affairs section positively contributed to poll results as described in the
       tsunami section of the report.

           Public diplomacy is an integral part of MPP goals and objectives, and the
       section contributes positively to carrying them out. The public affairs officer meets
       with the Ambassador, DCM, and other key embassy players daily and has estab­
       lished good relations with them. In supporting mission goals, the section makes use
       of a full range of public diplomacy tools and is cognizant of and making efforts to
       meet Government Performance and Results Act (GPRA) requirements. The staff
       at Embassy Jakarta consists of the public affairs officer plus seven other American
       direct-hire positions, including a regional English language officer and a regional
       information resources officer, supported by 27 FSNs.

           In 1997, the former U.S. Information Agency (USIA) removed a long-standing
       public diplomacy presence from Consulate General Surabaya because of severe
       budget constraints. Beginning in 2002, the principal officer began a sustained effort
       to reinstitute public diplomacy activities through outreach, media contact, targeted
       travel, and interaction with the pubic affairs section of Embassy Jakarta. An FSN
       was hired in September 2003, and an entry level American public diplomacy officer
       on a first tour arrived during the spring of 2005.

           The combined budget for the public affairs sections in both Embassy Jakarta
       and Consulate General Surabaya is about $680,000 supplemented by $1.6 million in
       economic support funds, $20,000 for representation, and $143,000 for English
       language programs. Economic support funds are authorized by the President’s
       Education Initiative in Indonesia to improve education and are limited to a six-year
       period (2004-2010). In addition to money directly administered by post, another
       $2.4 million goes to the Bureau of Educational and Cultural Affairs to administer
       mission-designated exchange activities. USAID and the Department are jointly
       tasked to use the money. The public affairs section has expanded its programs for
       scholarships and exchanges, training teachers, supporting English teaching, and
       translating books. The result is a significant boost in section capabilities.

           Staffing levels are about right for section activities although stretched to handle
       the economic support funds supplement. No additional staffing is requested or
       recommended because the economic support funds are not permanent base in­


20 .     OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




creases. Section funding is inadequate for continuing support of existing American
Corners (see American Corners Section below).

Consolidation of U.S. Information Agency and
the Department

    USIA consolidated with the Department October 1, 1999; yet some loose ends
relating to the merger remain. USIA had central funds that were available for the
computer support of its entire staff. During the cross walk of functions into the
Department, the situation of regional English language officers (RELO) with
stand-alone computers was not addressed. All public diplomacy network comput­
ers were taken over by embassy/bureau information management sections, which
converted them to Opennet and covers all support and replacement needs.

    The RELO, who was an integral part of USIA, is viewed by mission manage­
ment not as a member of the public affairs section but rather as a Bureau of
Educational and Cultural Affairs representative. Although the RELO’s small
program budget is inadequate and never was intended to include computers, the
officer was told that it now must. As a consequence, the RELO and two FSNs
who work for him at an off-site location are struggling with obsolete, inadequate
equipment and software. For example, one FSN is using a 1998 version of
Microsoft Word. Another uses a commercial Internet service with only 40 Kilo­
bytes available. There is also a need for cell phones. Officers in the public affairs
section and the information management section are working with the RELO to
solve the immediate problem. However, these efforts are a one-time fix that will
not address the systemic issue. The Bureau of Educational and Cultural Affairs
should revisit the consolidation cross walk and make appropriate provision for
including funding or incorporation into base transfer for RELOs and their staffs.
OIG will discuss this matter with the Department. It is not making a recommenda­
tion in this report because the problem is global and not specific to Embassy
Jakarta.

Outreach to Muslims

     Indonesia has the largest Muslim population of any country in the world.
Consequently, engaging in dialogue with Muslims to inform them of U.S. values and
culture as well as of its policies is a major thrust of the public diplomacy program
at Embassy Jakarta. More than talking about respect for Islam, the public affairs
section provides explanations about the tolerance of the United States for all
religions and the freedom of all Americans to choose or change their religion.


OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   21 .

                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




       According to the public affairs officer, the key is describing who Americans are and
       how tolerance thrives amidst diversity. Much of the material in the public diplo­
       macy section of this report deals with U.S. efforts to reach out to Muslim audiences.

       Information Advocacy

           In general journalists in Indonesia lack the professionalism of their counterparts
       in the developed world. Some make up interviews, and in the process quote
       individuals with whom they have not talked. Some report material that has no
       factual basis. Public affairs is working to improve the quality of journalism through
       a variety of means. The section arranged for the translation of a text in basic
       journalism and distributed 7,000 copies at seminars and workshops. It also gave a
       grant to an Indonesian association to invite the author to Indonesia to conduct
       workshops in five cities. The grant included funds for an Indonesian speaking U.S.
       journalist to conduct workshops in four other cities. Another program sent 48
       journalists to the United States on five reporting tours arranged by the
       Department’s Foreign Press Centers. The section worked with the Bureau of
       Public Affairs to arrange seven TV cooperatives that resulted in 75 TV stories
       broadcast over 400 minutes, much of that during prime time news programs. The
       success of these continuing efforts can be seen in the reporting by individuals who
       participated in public affairs programs. Overall, there is a long way to go, but
       progress can be documented.

       Cultural Affairs

           The cultural affairs section engages in a wide variety of activities and is respon­
       sible for the information resource center and the American Corners. The section
       works closely with the Fulbright Binational Commission. Over 300 Indonesians
       traveled to the United States during the past year on a wide variety of exchange
       programs. Cultural affairs runs an effective international visitor program, which has
       49 slots in FY 2005 chosen by a committee representing all elements of the mis­
       sion. Another program, the Youth Educational Scholarship and Exchange, begun
       in 2002, sends secondary school student leaders to the United States for an oppor­
       tunity to live with an American family and attend an American public high school.
       For FY 2005, 90 students are scheduled to participate. Indonesia’s Youth Leader­
       ship Program sends groups of teachers with their secondary school students to the
       United States for four weeks of training in civic education. For FY 2005, 41
       individuals will visit the United States on this program.




22 .     OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



Information Resource Center

    The information resource center (IRC) staff lacks the technological skills, and
more importantly the mind-set, required for an information age facility. Although
no longer a traditional lending library, the IRC is staffed by employees who tend to
think in terms of one. The staff focus on research in response to inquiries and
concentrate on long-time traditional contacts. The IRC should make greater efforts
to increase its customer base, especially to younger audiences. The IRC also needs
to better inform mission elements of the services it can provide to them. OIG has
informally recommended that the IRC develop a plan to expand the use of its
services to younger Indonesians and better inform mission elements. The Bureau
of International Information Programs has assigned a regional information re­
sources officer position to the now vacant slot at Embassy Jakarta, and one is
scheduled to arrive during the fall of 2005. This officer will make a difference in
modernizing the IRC.

American Corners

    American Corners are a new tool developed several years ago by Embassy
Moscow to reach a wide audience, especially young people. They are partnerships
with local institutions such as universities, public libraries, chambers of commerce,
and nongovernmental organizations often located outside the capital to provide
information about U.S. values and visions to foreign audiences. Corners have
collections of books, magazines, music, and on and off line databases from and
about the United States. Most have computers, television, and some video
conferencing capabilities. Many also provide readily accessible programming space.
The American Corners are located in partners’ facilities and operated by partners’
staff.

    Embassy Jakarta’s public affairs section has established ten American Corners,
five of which are in Islamic universities, and has an eleventh in the planning stages.
These are a cost effective means of reaching large audiences, as they require about
$50,000 to start and about $15,000 to $20,000 annually to maintain. Reports to
date show heavy usage of the corners, plus there is anecdotal evidence of positive
change in users attitudes towards the United States. Continued support of this
promising resource depends on identifying the relatively small amount of funds
needed to provide the corners with yearly financial help. The Bureau of Interna­
tional Information Programs sponsors their establishment, but as of now, it does
not fund yearly upkeep. The Bureau of East Asian and Pacific Affairs, which
allocates the public affairs section budget, does not increase the base to account for


OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   23 .

                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




       the costs of maintaining the American Corners. Both bureaus are aware of the
       dilemma and that it creates uncertainty for Embassy Jakarta and other missions
       with American Corners.

       Fulbright Commission

            The American Indonesian Exchange Foundation was established in 1992 as a
       binational commission to administer the Fulbright program in Indonesia. It annu­
       ally awards more than 80 scholarships to Americans and Indonesians for study,
       research, and teaching. Resources come chiefly from the U.S. government through
       the Bureau of Educational and Cultural Affairs and economic support funds, and
       for FY 2005 total about $4.6 million. The foundation also provides an academic
       advising service on its premises. The public affairs officer and the cultural affairs
       officer serve on the board and maintain active oversight of the organization’s
       activities.

       Regional English Language Officer

           A RELO is based at Embassy Jakarta and spends about 50 percent of his time
       in various parts of Indonesia. The RELO has had significant success with the
       embassy’s English Teaching Fellow program, which receives economic support
       funds as part of the President’s Educational Initiative in Indonesia. Designed to
       use English teaching as a vehicle to provide instruction in critical thinking skills,
       civic education, ethnic and religious tolerance, conflict resolution, and rule of law,
       the program is welcomed in Indonesian universities. For the 2004-2005 school
       year, the embassy hosted eight fellows, and it plans to increase the number to 12
       for the 2005-2006 scholastic year. Both the RELO and the fellows are regularly
       using the American Corners as locations for workshops and other programs, creat­
       ing new synergies.

           The RELO has initiated a promising “ACCESS” secondary school micro schol­
       arship program. With a budget of $240,000, over 700 disadvantaged, nonelite
       youths at three institutions are learning English language skills and receiving
       accurate information about American culture. The program selected students who
       had specific practical goals regarding how they would use English to empower
       themselves to improve their lives. Those chosen are enthusiastic and working hard
       for a brighter future.




24 .     OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



BROADCASTING BOARD OF GOVERNORS
    The Broadcasting Board of Governors has both an office of marketing and
program placement and a Voice of America (VOA) Jakarta News Center located in
Jakarta. The two are completely separate and each reports to supervisors in
Bangkok. In addition, an English correspondent from the VOA newsroom is
resident in Jakarta.

    Two Indonesian contractors constitute the regional office of marketing and
program placement with each operating out of the individual contractor’s respec­
tive home. One is responsible for East Timor. They report to the regional market­
ing office in Bangkok and have few contacts with the embassy. The contractors
provide the regional office with weekly reports of activities, and three times a year
compile compliance reports covering each affiliate station.

    The VOA Jakarta News Center opened in March 2005 and produces nine and a
half hours of radio programming per day and an average of six hours of television
per week. The center has two radio studios and one television studio. The staff
consists of four Indonesian employees and an Indonesian service rotational corre­
spondent from Washington. Three stringers contribute to the radio programs. The
center rents space in a centrally located office building. It has an office available
for the use of the English correspondent and the correspondent’s assistant. The
VOA Jakarta News Center is still in a start-up phase but looks promising.



CONSULAR OPERATIONS
     Three consular entities—sections at Embassy Jakarta and Consulate General
Surabaya along with a consular agency on Bali—serve the public and the mission.
Statutory consular objectives include assisting and protecting U.S. citizens, and
their interests and safeguarding American borders. The MPP includes explicit
consular objectives, and the section enjoys positive relationships with other mission
elements. Consular pages provide accurate, timely information via the mission web
site. In Jakarta, consular section staff includes two mid-level Foreign Service
officer positions, six and one half entry-level officers, 20 FSNs and two eligible
family members. One half-time and two full-time Foreign Service officers and four
FSNs staff Consulate General Surabaya consular section, and one consular agent
and nine FSNs (including guards) work at the consular agency on Bali. The De­
partment created an entry-level officer consular position in Jakarta based on the
mission’s 2004 MPP and consular package submissions.


OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   25 .

                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



           About 10,000 U.S. citizens reside in Indonesia and over 75,000 visit each year.
       Embassy Jakarta’s American citizens services unit provided approximately 2,000
       notarial acts, 1,000 welfare/whereabouts inquiries, 10 death services, 15 prison
       assists, and adjudicated 5,500 passports plus 125 consular reports of birth abroad
       in FY 2004. The visa unit adjudicated approximately 45,000 nonimmigrant visa
       (NIV) s and 600 immigrant visas (IVs) during the same period. Consulate General
       Surabaya evaluated some 1,400 passport and 81 birth report applications, 20 death
       cases, and handled 60 welfare/whereabouts questions as well as processed 14,000
       NIVs during FY 2004. The Bali consular agency, in the city of Denpasar, assisted
       nearly 2,000 Americans in FY 2004. Approximately 5,000 Americans registered
       with the embassy and 1,500 with the consulate general, including those using the
       consular agency. A memorandum of understanding obligates Embassy Jakarta to
       provide substantial support for the consular unit at the embassy in Dili, East Timor.
       Embassy Dili emphatically categorized the quality of this support as excellent,
       particularly noting the consul general’s responsiveness and knowledge.

       Consular Management

           Consular morale is uneven in Jakarta where staff expressed trust in their super­
       visors’ functional skills and willingness to share information but voiced concern
       over direction and management. American staffers cited, for example, uncertainties
       over working norms, poor on-the-job mentoring, and unexpected line officer
       transfers to other units within the embassy. They stated, for example, that allotting
       NIV workload to two and one-half officers, when the unit should have four posi­
       tions, weakened unit performance and affected morale. Staffing gaps and
       intraembassy transfers plus a lack of section depth and unavailability of other
       commissioned consular officers to pick up shortfalls left the section on its knees.
       As mentioned earlier, executive leadership, particularly the DCM, needs to show a
       more active involvement in the management and service problems of the section.
       The DCM has been far from inert, meets regularly with the consul general, and
       occasionally visits the section. Given the size and persistence of the consular
       problems, the DCM could give more guidance.

           A fundamentally strong group of FSNs enables the consular section to survive.
       Just one mid-level supervisor means the consul general must instruct entry-level
       officers on routine matters and fill gaps in the line herself, reducing her already
       severely constrained management time. OIG observed that, as of July 1, 2005, the
       section had just one experienced officer, the consul general. All but one of the
       potential eight and one half other American officers are first-tour, entry-level
       officers. Three of the entry-level officer positions are rotational, spending only one



26 .     OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




year in the consular section. By mid-July 2005, all officers except the consul
general and one vice consul will have less than four months at the embassy. This
situation can only weaken the delivery of timely services.


   Recommendation 2: The Bureau of Human Resources should assign entry-
   level officers to Jakarta’s consular section for two-year tours of duty. (Action:
   DGHR)


    The consul general observed that the need to “plug holes in the dike” undercuts
her ability to do more than manage crises. For example, a consular management
assistance team (CMAT) visited Indonesia in mid-2004 and offered suggestions for
improving consular services. While some of the team’s recommendations were
implemented, a lack of personnel resources thwarted the consul general’s ability to
analyze, let alone apply, others. The press of business obviated or blocked the
possibility of distance-learning or training at another embassy.

    Although the consul general position has a 3/3 Indonesian language designa­
tion, the Department granted language waivers to the present and prior incumbents.
With only one experienced supervisory officer, the consul general, it is imperative
that the incumbent speaks Indonesian to adequately supervise and monitor the
work of the six and a half first-tour vice consuls. This appears especially impor­
tant given a high fraud environment, with almost all visa interviews conducted in
Indonesian.


   Recommendation 3: The Bureau of Human Resources, in coordination
   with the Foreign Service Institute, the Bureau of Consular Affairs, and the
   Bureau of East Asian and Pacific Affairs, should require that future consuls
   general meet the Indonesian language 3/3 standard. (Action: DGHR, in co­
   ordination with FSI, CA, and EAP)


    OIG found that Embassy Jakarta and Consulate General Surabaya need to
improve consular policy and functional coordination. Discrepancies involve
internal practices, workflow, and training issues. The consul general, already
designated as mission consular coordinator, needs time and funding to institute and
manage common approaches and methodologies. OIG advocated techniques
including development of country-specific, written consular standard operating
procedures and the dovetailing of each consular section’s formal outreach, repre­
sentation, and reporting programs to close the gap.



OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   27 .

                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




          Recommendation 4: Embassy Jakarta should standardize mission-wide con­
          sular activities. (Action: Embassy Jakarta)


           Mission Indonesia’s consular staff fields 200 Congressional inquiries, approxi­
       mately 7,000 telephone calls, and 6,000 written questions each month. The 2004
       CMAT recommended the mission establish a call center. Call centers serve many
       purposes. Some respond to telephonic inquiries, some make NIV appointments,
       and others do both and/or perform a variety of tasks. The Bureau of Consular
       Affairs standard operating instruction 51 offers guidance on establishing call
       centers. Call center use would greatly reduce mission workloads.


          Recommendation 5: Embassy Jakarta should establish a consular call center
          operation. (Action: Embassy Jakarta)


       Visa Clearances

           The mission fully supports and implements regulatory measures that protect
       U.S. interests. American regulations require obtaining specific clearance before
       issuing visas to persons whose names, or close name matches, appear in a visa
       lookout system. As the world’s largest Muslim country, many Indonesians have
       common Arabic-derived names. Indonesians who are neither criminals nor affili­
       ated with terrorism therefore often have lookout system hits based on entries for
       suspected terrorists. When this occurs, special clearances must be sought before
       visa issuance. Exacerbating the issue, many Indonesians use only one name,
       making it impossible to rule out hits with a matching surname or first name.

            Processing time for such clearances, now about two weeks for most applicants,
       recently improved dramatically. However, about 10 percent of applicants each
       month require a second clearance request due to new nonspecific hits. These
       additional hits enter the system between the time the mission makes an inquiry and
       the Department replies. About 20 percent of those requiring a second submission
       then require a third, fourth, or fifth query. Clearing visa applications for persons
       with common names can take six months or more. These instances, though rela­
       tively few in number, contribute greatly to perceptions of U.S. discrimination
       against Muslims. OIG referred this issue for further development, as it would
       appear to apply worldwide and not specifically only to visa applicants at the U. S.
       mission in Indonesia.



28 .     OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




Exchange Visitor Reciprocity

    Indonesians may qualify for maximum validity one-year exchange visitor (J)
visas based on the present bilateral visa reciprocity schedule. About 600 persons
sought J visas in FY 2004. Most J visa applicants, including Fulbright and other
prestigious program scholars, pursue multi-year programs. Many visit home during
summer vacations. Because they must obtain new visas to return to their pro­
grams, their visa reapplications create more work for the mission. Those with
common names may find that the clearance issues described above delay return to
the U.S before classes resume. In 2004, one student missed an entire semester.
Such incidents destroy goodwill created by U.S. government-sponsored scholarship
programs.

    Increased Fulbright and other academic outreach efforts, particularly those
designed to expose Muslim scholars to the United States, means that J visa applica­
tion rates will rise in the next few years. Revising J visa validity from 12 to 24
months would reduce mission visa workload, help eliminate adverse publicity, and
would not create harmful security implications. Changing the validity period could
either be jointly negotiated, or the Department could unilaterally liberalize the
reciprocity schedule as it has done in other instances. Amending J visa validity to
24 months would save mission resources and enable exchange visitors to complete
their programs.


   Recommendation 6: Embassy Jakarta should propose, and the Bureau of
   Consular Affairs should approve, the revision of the visa reciprocity schedule
   for Indonesia to extend validity of exchange visitor visas from 12 to 24
   months. (Action: Embassy Jakarta, in coordination with CA)


Information Sharing with Australia

    Due to its geographic location, Australia has a historically strong interest in
Indonesian immigration and visa fraud. Australian immigration and police officials
studied and tracked prospective terrorists and illegal immigrants well before Sep­
tember 11, 2001, because they believed such persons enter their country via Indo­
nesia. Australia’s well-developed immigration tracking system and police liaison
work at Indonesian airports yields valuable fraud and potential terrorist informa­
tion. The mission consular and RSO sections work closely with Australian officials
on a variety of security and visa fraud issues. Such cooperation could be strength­
ened further, to the benefit of the United States, by the Department’s authorizing
information sharing with Australia as broad as is authorized with Canada.

OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   29 .

                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




          Recommendation 7: The Bureau of Consular Affairs should issue guidance
          for sharing visa information with Australia similar to that delineated in 03
          State 344544, Cooperation with Canada on Visa Processing. (Action: CA)


       American Citizens Services

           Unfortunately, natural disasters and terrorism afflict Indonesia regularly and can
       easily affect U.S. citizens. The American citizens services units maintain strong
       working relationships with Indonesian authorities. The mission’s well-organized
       warden system meets requirements to orchestrate effective emergency safety and/
       or evacuation plans for Americans. Some of the latter expressed their appreciation
       for those efforts to OIG. Statistics describing the unit’s workload are cited earlier
       in this report.

       Visas

           Embassy Jakarta’s consular section provides both NIV and IV services. Consu­
       late General Surabaya evaluates only NIV applications. Visa workload statistics
       may be found earlier in this report. Careful judgment of visa candidates in compli­
       ance with all pertinent laws and regulations protects U.S. borders by identifying and
       excluding terrorists, curbing illegal immigration, and sustaining bona fide travel to
       the United States. OIG found the NIV units uphold U.S. laws and regulations while
       providing civil, useful service. Roughly 45 percent of Indonesian first time visitor
       visa applicants do not qualify for visas. Seamen, notably prospective mariners on
       cruise ships operating near U.S. waters, form a large and economically important
       part of the NIV constituency. Consular section outreach results in first-rate rela­
       tions with most organizations representing potential visiting seamen. In Jakarta,
       crewmen may apply for visas at specific times and receive expedited service.
       Similarly, the visa section facilitates legitimate business travel by offering particular
       times for visa applicants from preregistered companies without making appoint­
       ments. By July 2005, some 180 firms registered for the Business Visa Program.
       This undertaking earns high marks from trade, industry, and chamber of commerce
       executives.

           Applicants for NIVs pay a machine-readable visa fee. In Jakarta, an on-site
       bank branch collects the fee as applicants enter the embassy compound. This
       needlessly complicates visitor flow and adds to consular space congestion. This
       practice may contribute to the roughly 25 percent applicant no-show rate Embassy



30 .     OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




Jakarta experiences as visa candidates pay the machine-readable visa fee after they
make interview appointments. Visa seekers contact consular staff to make ap­
pointments for their interviews thus consuming resources. Consulate General
Surabaya uses the same general procedure. The 2004 CMAT team recommended
that the mission institute off-site machine-readable visa fee collection. Coincident
with that, the bank could make appointments upon fee payment and perform data
entry tasks. CA sanctions and advocates this approach. The MRV memorandum
of understanding with Citibank expired in 2003. OIG strongly endorses the CMAT
recommendation.


   Recommendation 8: Embassy Jakarta should negotiate an agreement with a
   financial institution to collect machine-readable visa fees off site and perform
   initial data entry tasks for nonimmigrant visa applicants. (Action: Embassy
   Jakarta)


Fraud Prevention

     Forty-five percent of first-time visitor visa applicants do not qualify for visas.
This situation fosters fraud and led the Department to designate Indonesia formally
as a high fraud country. As part of the campaign to strengthen border security, DS
and CA signed a memorandum of understanding to create positions designated as
assistant regional security officers with investigative powers. The primary responsi­
bilities of these positions are to investigate instances of fraud threatening visa and
passport issuance. One of these positions was assigned to Jakarta.

    OIG found a superior working relationship between consular antifraud and
regional security offices. In Jakarta, the recently arrived assistant regional security
officer/investigator focuses his attention on uncovering and, in concert with
Indonesian authorities, dismantling fraud rings. He and his colleagues authenticate
family relationships, determine identity and citizenship, validate records, and
investigate claims. Success to date includes destruction of a fraud ring as well as
uncovering fake documents relating to individual applicants. In Surabaya, the RSO
and consular employees investigate suspicious cases. Surabaya’s RSO takes a
commendably proactive role helping overstretched consular staffers. Positive
results there include destroying several fraud rings and indictments followed by
prosecutions through the Indonesian legal system. Both sections see a large
amount of comparatively unsophisticated, detectable fraud at present. As forgery
techniques get more sophisticated, however, detection will become more difficult.



OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   31 .

                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



       OIG informally suggested that the antifraud workload be analyzed to determine
       whether Embassy Jakarta requires a consular FSN investigation position to help
       manage the mandate.

       Consular Eyesore

            Public access controls and undesirable locations make the consular sections an
       eyesore. In Jakarta, visa applicants wait outside in a humid, littered area under a
       railway line before entering the compound. All embassy staff and visitors share the
       compound entrance, adding to congestion. Then, snake-like queuing in a maze that
       runs close to 800 feet long precedes standing in a 10-person deep line before an
       acoustically useless interview window. Clients pass through security screening
       midway through the procession. Public toilets exist past that point. American
       citizens are permitted to bypass most of the line up process prior to entering the
       screening space. All clients share a cramped indoor waiting room before talking
       with consular staff. Steps and turnstiles pose continual obstacles for the handi­
       capped.

            Employee working space is crowded. When not at closely spaced interview
       windows, two or three FSNs share 12 by 10 foot cubicles while entry-level officers
       split 12 by 12 cubicles. Employees do their best, however, to maintain their space
       neatly.

           Surabaya suffers from even worse space. Visa candidates wait alongside a very
       busy street exposed to pollution and reckless drivers before entering the compound.
       Once inside the building, again with only one entrance, people squeeze past each
       other to vie for space before meeting consular staffers. Conditions in the so-called
       waiting room resemble a Tokyo subway car at rush hour with people literally cheek
       by jowl. Staff area consists of one desk per FSN and two officers sharing a larger
       room. The third part-time consular officer thankfully shares another nearby office
       with a colleague or two.

           The consular agency in Denpasar, Bali is more businesslike and client friendly.
       Located in a well-maintained bungalow, it projects a favorable image for the United
       States. The consular agent and his senior assistant have their own offices. Clients
       use a sparse but clean eight by 10 foot waiting room.

          The 2004 CMAT described consular physical conditions in Jakarta and
       Surabaya and endorsed or suggested ways to improve client waiting and staff
       working areas. The mission obtained funds to upgrade facilities though a CA
       program aimed at improving consular space worldwide called the consular improve­


32 .     OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



ment initiative. Consular improvement initiative money paid building costs for
outdoor client waiting shelters in Jakarta and for improvements in customer flow-
through. The consular improvement initiative supplied Consulate General
Surabaya with $25,000 used to add sound-deadening material in the consular
waiting room. At the time of the inspection about $250,000 of initiative money
remained unspent in Jakarta. Consular managers said they expected to use about
$160,000 to build more outdoor waiting space and $60,000 to hire a professional
space designer to improve space usage. However, that planned construction now
may be affected by possible changes to the embassy compound entrance.


   Recommendation 9: Embassy Jakarta should determine whether changes to
   its compound perimeter foreclose needs for more protected waiting space.
   (Action: Embassy Jakarta)



   Recommendation 10: Embassy Jakarta should expedite use of consular im­
   provement initiative funds for remedial construction or return the funds to the
   Department for other consular improvement initiative uses. (Action: Em­
   bassy Jakarta)




OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   33 .

                   SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED





34 .   OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





                 RESOURCE MANAGEMENT

Agency                               U.S.            U.S. Local- Foreign Total   Total
                                    Direct-          Hire Staff National Staff Funding
                                    Hire Staff                   Staff          (000s)
                                                                               FY 2005

Department of State                  113                20           851            984       18.0
Foreign Commercial Service             2                 0            16             18         .5
Defense Attaché Office                14                 0             5             19         .6
U.S. Agency for International
    Development -Program                                                                      129.4
USAID - Operating                     51                8            116             175        4.8
    Expenses
Library of Congress                    1                0             39              40         1.3
Office of Defense                      1                0              5               6          .2
    Corporation
Navy-HQCINCPAC                         2                0               1             3          .04
Dept of Justice - Legal                1                0               0             1            .1
    Attaché
Dept of Justice - ICITAP               3                0              4             7            .5
Foreign Agricultural Svc               2                0              7             9            .3
Dept of Interior                       1                0              2             3
Navy Medical Research                 24                0            110           134           7.6
    Unit
Air Mobility Command                                                  1              1         .02
IBB Affiliates - VOA                                                  5              5          .2
Totals                               215                28          1162          1405      $163.56
Data provided by Embassy Jakarta

    Mission Jakarta is one of the largest U.S. diplomatic missions worldwide.
Staffing by the Department and other agencies exceeds 1,400 U.S. and LES person­
nel. Funds managed for all clients in FY 2005 are estimated to exceed $34 million.


OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   35 .

                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




       The mission faces major challenges in the areas of shared services, operating in a
       totally inadequate compound, and establishing a viable American presence post in
       Medan.



       ADMINISTRATIVE OPERATIONS
           Administrative operations for the past three years have been well managed by a
       senior management counselor, a feat all the more credible because of an extended
       evacuation in 2002-2003 and significant staffing gaps in several administrative
       functions. Most notably, the embassy went seven months without a human re­
       sources officer and had FSNs that were in responsible positions that have now been
       replaced or are working under performance improvement plans. Additionally, the
       embassy has an administrative section that has not received an overwhelming
       number of bids for its various positions the past few years.



       REAL PROPERTY
           Embassy Jakarta manages a large portfolio of both office and residential gov­
       ernment owned and leased properties. The government owned embassy compound
       with about 19 separate buildings is not adequate for present and future require­
       ments. Completion of a new embassy compound is scheduled for 2010. A site
       evaluation is scheduled for late FY 2005 or early FY 2006. However, site acquisi­
       tion will not be finalized until Embassy Jakarta completes a rightsizing requirement
       with the Office of Rightsizing (State 117166, 23 Jun 05).

           The embassy received $1 million as part of the Bureau of Overseas Buildings
       Operations (OBO) Wellness Program and has initiated 26 projects in both govern­
       ment owned stand-alone houses and apartments. An unconscionable lack of
       compassion by American management resulted in a handicapped employee being
       required to negotiate a steep flight of stairs at least twice a day for many years. An
       agreement with the Indonesian government for assistance in equivalent property
       that is the site for 20 houses and the American Employees’ club ended in 2001.
       There is a government-owned resort property that is little used and overly expen­
       sive; it should be sold. Elimination of a little used commissary store will provide
       additional sorely needed space. Completion of a warehouse renovation project was
       being delayed due to poor performance by an American contractor. Due to funding
       limitations, when the renovation is completed, it still will not provide adequate


36 .     OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




space to meet the requirements for warehousing the property of both Department
and supported agencies. It is essential that the proposed new embassy compound
project include adequate warehousing.

Accessibility for Disabled Employees

                                                         The chancery compound
                                                         does not facilitate the work
                                                         of disabled employees.
                                                         OIG discovered an FSN
                                                         employee, disabled by
                                                         polio, who for over 11
                                                          years had been negotiating
                                                          a 22-step staircase to enter
                                                          or leave her office space.
                                                          It took OIG’s notice of
                                                          this situation and the
                                                          prompt action of the
      Stairway to the Financial Management Center         Ambassador to begin to
                                                          redress what had been an
unconscionable disregard of handicapped needs. On June 21, 2005, Embassy
Jakarta forwarded plans for a wheelchair lift for approval and funding. In July 2005,
OBO provided funds to design and procure the installation of adequate facilities
for the disabled.


   Recommendation 11: Embassy Jakarta, in coordination with the Bureau of
   Overseas Buildings Operations, should design and procure the installation of
   a wheel chair lift at the medical/financial management center building. (Ac­
   tion: Embassy Jakarta, in coordination with OBO)


Field Operating Agency Compound

    The government of Indonesia made the Field Operating Agency compound
available to the embassy under a 20-year assistance in kind agreement in 1981.
The compound was originally given to the U.S. government in 1952 pursuant to
several bilateral agreements concerning economic and military assistance. The
compound comprises 20 houses and the land on which the American Employees
Club facilities are located. The embassy has occupied the property rent-free with
an agreement that expired in 2001.

OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   37 .

                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




          Recommendation 12: Embassy Jakarta should negotiate an agreement with
          the government of Indonesia for the use of the Field Operating Agency com­
          pound. (Action: Embassy Jakarta)



          Recommendation 13: Embassy Jakarta should determine if a liability exists
          for unpaid rent since the expiration of the agreement in 2001. (Action: Em­
          bassy Jakarta)


       Mirasole Property

           The mission owns a property - Mirasole - in the Puncak area 92 kilometers from
       downtown Jakarta. The property has two houses that are available for use by
       mission personnel for a fee. During the last two years, post has collected approxi­
       mately $4,000 in rental fees and paid over $25,000 for expenses and repairs. The
       collection of the fees will be discussed in the Management Controls section later in
       the report. The property is occupied most of the time by only the full-time house­
       hold staff. The lack of interest by mission staff in making use of the property,
       coupled with the cost of maintaining it, does not justify its continued retention.


          Recommendation 14: Embassy Jakarta, in coordination with the Bureau of
          Overseas Buildings Operations, should obtain an appraisal of Mirasole, prop­
          erty no. GO/OBO-R45061, obtain permission to sell the property, and place
          it for sale. (Action: Embassy Jakarta, in coordination with OBO)


       Renovation Projects

           OBO has not provided sufficient oversight of construction contractors on two
       major projects. The first, an often delayed and troubled replacement of the chan­
       cery air conditioning system, was finished months behind schedule by a less than
       competent contractor whose work resulted in roof damage and flooding in the
       chancery.

           Renovation projects are, at best, costly temporary fixes in Jakarta. A new
       embassy compound, complete with adequate warehouse facilities, is sorely needed.
       A project estimated to cost about $4 million to renovate the embassy warehouse is
       significantly behind schedule resulting in unnecessary costs to continue to lease a


38 .     OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




temporary warehouse. Present lease costs
are $7,500 a month, and the lease will
have to be extended for about six
months after the expiration date of
August 2005. Even when completed,
the renovation project will not meet the
needs of the chancery. Space will be
woefully insufficient, and the Depart­
ment (the service storage provider) will
not be able to meet requirements for
warehousing the property of supported
agencies. Ceilings will be so low that
only one level of furniture, furnishings,
or equipment can be stored.
Crossbeams for ceilings in both office
and some storage spaces are so low
that persons of less than average                          Embassy Jakarta Warehouse Upper
height can readily touch the beams. In                           Level Office Space
areas where there is more space,
available headroom is not sufficient to
provide adequate storage capacity.

   There are other significant flaws. The capacity of wiring and cabling to supply
power will not be sufficient to permit maintenance shops to operate all necessary
equipment. Ingress and egress are severely limited and constitute a safety hazard.
                                               Access for deliveries is also severely
                                               limited. During the rainy season the
                                               entire area floods, and there is no
                                               apparent capability to pump excess
                                               water from the compound. In all
                                               probability, items in storage will be
                                               damaged.

                                                       At the time of the inspection
                                                   (June 2005) there had not been a
                                                   project director on site for six
               2004 Rainy Season                   months. Both the contracting
                                                   officer and the contracting officer’s
representative are located in Washington D.C. The only OBO employee associated
with the project in Jakarta is a locally hired Indonesian secretary who has no re­
sponsibility for oversight or direction of the contractor. Facilities maintenance


OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   39 .

                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




       managers or other embassy personnel were not delegated authority to oversee the
       contractor.




          Recommendation 15: The Bureau of Overseas Buildings Operations should
          assign a project manager to review and oversee the final phases of contract
          number SALMEC-02-D-0022-0021. (Action: OBO)



          Recommendation 16: The Bureau of Administration, Office of Acquisi­
          tions Management should designate an individual located in Jakarta as con­
          tracting officer’s representative for contract SALMEC-02-D-0022-0021. (Ac­
          tion: A/LM)



          Recommendation 17: Embassy Jakarta, in coordination with the Bureau of
          Overseas Buildings Operations and the Bureau of Administration, Office of
          Acquisitions Management, should determine and assess penalties for the
          contractor’s failure to perform timely work on contract number SALMEC-02­
          D-0022-0021. (Action: Embassy Jakarta, in coordination with OBO and
          A/LM)



          Recommendation 18: Embassy Jakarta, in coordination with the Bureau of
          Overseas Buildings Operations, should locate and lease warehouse space suf­
          ficient to store the property of supported agencies that cannot be warehoused
          in the government-owned warehouse (property number GO/OBO-R3400).
          (Action: Embassy Jakarta, in coordination with OBO)


       Shared Services (Rightsizing)

            Embassy Jakarta was one of four posts examined as part of a Department/
       USAID shared services study. Near-term recommendations made were to consoli­
       date motor pools and leasing operations. Responsibility for residential leasing was
       assumed by USAID. Nonresidential leasing and leasing outside Jakarta remained
       with the Department. Motor pool operations, too, were only partly consolidated.
       The Department assumed responsibility for most operations, but USAID retained
       its program vehicles. Another four agencies still operate their own motor pools.

40 .     OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



    The rightsizing report that is required before a site can be acquired (see real
property above), in the case of a mission the size of Jakarta, will basically show
that the concept (a mission-wide consolidated management section) envisioned by
the Office of Management and Budget is flawed. Embassy Jakarta, in an e-mail
dated June 4, 2005, pointed out that two non-Department Americans and 95 FSNs
were in positions that are administrative in nature, and more than half would have
to be cross-walked to a combined management section. Questions about increased
funding requirements for International Cooperative Administrative Support Ser­
vices (ICASS) as well as interagency cooperation and coordination at the Washing­
ton level were also raised.



INFORMATION MANAGEMENT AND INFORMATION TECHNOLOGY
SECURITY
     Embassy Jakarta’s information management function covers the spectrum of
information technology (IT) operations. This function operates the Sensitive-But-
Unclassified (SBU) network called OpenNet Plus, the classified network called
ClassNet, and an information resource center dedicated Internet network. The
function also is responsible for pouch management, radios, and the telephone.
Embassy Jakarta is enormously important in the conduct of foreign policy, has
grown by leaps and bounds as reflected in the mission performance plan, and is in
the forefront of many Departmental initiatives as borne out by the number of
visitors and high-level delegations. Previous management had not focused on the
infrastructure necessary to support the goals and objectives in the MPP as well as
the information technology infrastructure costs to support these visits. As a result,
the embassy’s IT infrastructure could have been improved if additional funding for
equipment had been requested. Instead current management is scrambling to shore
up and improve the current infrastructure and is addressing these issues during the
current planning process. Such long-range planning needs to be consistently done
so that the embassy IT infrastructure can support mission needs. Specific areas
where management attention is needed include infrastructure, documentation,
configuration management, and the help desk. Recommendations are discussed in
the sections that follow.
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)




OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   41 .

                   SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)


       Information Management

           An information management officer heads the information management func­
       tion. An information program officer with four information management specialists
       manages the classified network, pouch, radio, and telephone operations. An infor­
       mation systems officer and an assistant manage the SBU network including infra­
       structure, user, and local applications components. The SBU network has 24
       servers and 380 workstations. This system has one off- site location (the ware­
       house with 25 workstations) and plans to provide OpenNet Plus to another off-site
       location in the near future. Medan, with one server and 10 workstations, is man­
       aged remotely. LES support the SBU operations, the unclassified pouch, mail, and
       telephone operations; one LES also serves as the telephone technician. Embassy
       Jakarta has a memorandum of understanding with Embassy Dili to provide infor­
       mation technology support.
             (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)



          Recommendation 19: Embassy Jakarta should include the information tech­
          nology infrastructure resource needs in the Mission Performance Plan and the
          Bureau of East Asian and Pacific Affairs should provide sufficient funding to
          meet those needs. (Action: Embassy Jakarta, in coordination with EAP)




42 .      OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                   SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



     Currently SBU operations are housed in a lock-and-leave facility, which means
that an American must be present during all after-hours operations. This responsi­
bility is currently being borne by the two individuals that are assigned to the infor­
mation support operations. This duty should be shared among all Americans in the
information management operation.

    Embassy Jakarta uses a variety of mechanisms to communicate IT processes
and procedures. Both the unclassified and classified operations contain standard
operating procedures manuals that are available to staff for guidance and reference.
Specific guidance is promulgated through e-mail. The embassy uses management
notices to inform all embassy personnel of general information management /
information systems security requirements.

    On the whole, these procedures are clear and comprehensive with the excep­
tion of some instructions in the classified standard operating procedures. There are
multiple procedures with different dates and group accounts with passwords
documented in the procedures. The instructions tell the information systems
management center personnel to log on to any of the servers using either their
administrator logon or a group account logon. This instruction is contrary to
security standards that require system administrators to use their own accounts and
not group accounts. These errors were corrected during the inspection. Other
minor issues were noted during OIG’s review of the documentation and informal
recommendations were made to correct discrepancies. Much of the guidance
provided through e-mail was not printed and maintained in a central file. Other
notices referred to procedures that were no longer in effect.

    The lack of written policies and procedures has led to confusion regarding the
appropriate way to handle issues. For example, the human resources office was not
notified when the Department identified that local security personnel visited
sexually explicit web sites. OIG also found video and audio files that are not
work related being stored on government equipment. Embassy Jakarta issued
management instruction no. 58 on outlook mailbox size limits that resulted in the
data backup of over six hours - much of this was attributed to items that were not
work related, including picture and video files. Standard operating procedures need
to be distributed reminding employees about the consequences of improper use of
U.S. government equipment. Such procedures should define the process for identi­
fying and reporting inappropriate use to the supervisor, human resources, and the
employee. OIG made an informal recommendation to review and correct the
procedures as necessary and to develop and document the missing key procedures.




OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   43 .

                   SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



           Contingency planning for unclassified and classified operations and the site
       security plan follow the Department’s template. The templates contained inaccu­
       rate information that has not been removed. For example, a description says that
       nongovernmental organization employees have access to the embassy’s systems,
       which is contrary to access controls. The contingency plan is not tailored to the
       embassy’s specific operations and refers to position titles and not individuals.
       Additionally, the contingency plan must be coordinated with the emergency action
       plan. 5 FAM 511e states that posts must address telecommunications outages and
       anticipated recovery actions in their electronic information processing contingency
       plans. None of the plans address the possibility of other locations within this area
       - such as Surabaya, Medan, and Dili - using Jakarta as a contingency site. The post
       has prepared the site security plan in accordance with the Department’s guidance.
       Embassy Jakarta has used the Department of State’s automated FISMA informa­
       tion reporting environment (SAFIRE) mechanism for recording all weaknesses and
       suggested fixes.

           Embassies can implement software and hardware that is not part of the Depart­
       ment configuration baseline to meet special business needs. A local change control
       board must approve these special configurations. Several independent reports, the
       regional computer security officer and the Department-generated patch manage­
       ment report identify software that is not part of the Department’s baseline. The
       post has approved the use of thumb drives, but has no controls in place to ensure
       the appropriate use of this technology.
            (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)



          Recommendation 20: Embassy Jakarta should ask the Bureau of Informa­
          tion Resource Management to correct the errors in the reports generated by
          the system management server, and the Bureau of Information Resource
          Management should make the corrections. (Action: Embassy Jakarta, in co­
          ordination with IRM)


           Management needs to devote additional attention to the help-desk operations.
       At this time, management cannot evaluate the effectiveness of these operations



44 .      OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                   SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




although they believe that the function is improving. The current help-desk soft­
ware does not provide reports so that management can readily identify problem
areas or potential problem areas so that preventive or proactive maintenance can
take place. Trend reports are not prepared. Management should be able to evalu­
ate the effectiveness of the operations and the support being provided - especially
to ICASS agency participants.

     Mission Jakarta has three web sites: the mission’s external site which is man­
aged by the public affairs section, the internal mission web site, and one that is
published by USIA which only refers but does not link to the mission’s site. Post
management believes that the Internet site is current and useful, but the Intranet
site needs additional work. Errors, including broken links, exist on all three web
sites. Some information is outdated and poorly written on these web sites as well.
USAID’s Indonesia web site refers to the embassy web site but does not link to that
site.

    Department design and content standards require a link to the main Depart­
ment Internet site as stated in 5 FAM 776.2, and the section also requires adher­
ence to the Department’s standards and practices and federal regulations. All
Department web sites must be accessible to the disabled (5 FAM 776.4). State
cable 00131192, June 15, 2004, states that at the post level, overseas staff will
now be able to access Department and USAID post-specific Intranet sites.

     The embassy has implemented many significant information management
improvement practices. Specifically, the information systems officer established
shared folders for each office. OIG informally recommended that when individu­
als leave, all appropriate files be transferred to the shared folders and the computer
be reimaged.

Information Technology Security
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)      The June 21, 2005, management instruction designates
the information systems officer as the information systems security officer. The
assistant information systems officer has been designated as the alternate informa­
tion systems security officer. The individual that manages the system cannot also
be the individual that polices the system. The information systems officer can be
designated the information systems security officer for the classified system as he




OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   45 .

                   SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




       does not control that system. Separation of equipment is an issue in the classified
       processing area. Having an information systems security officer that is not a
       member of that unit might have surfaced the issue earlier.


          Recommendation 21: Embassy Jakarta should designate the information
          program officer as the information systems security officer for the unclassified
          system and the information systems officer as the information systems secu­
          rity officer for the classified system. A regional security officer should be des­
          ignated as an alternate information systems security officer. (Action: Em­
          bassy Jakarta)


            (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)

            (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)




       HUMAN RESOURCES
           Human resource operations have shown marked improvement recently with the
       arrival of an officer less then one year ago and the more recent arrival of an Ameri­
       can assistant human resources officer. Improvements actually started when the
       management counselor had to fill some of the void caused by a seven-month gap.
       The FSNs and prior management had not been known for either their ability or
       service orientation. Conditions deteriorated to the point that support for newly
       established Embassy Dili had to be transferred to the regional human resources
       office in Bangkok. They found that the most basic support, such as establishment
       of official personnel folders for the staff in Dili, had not taken place.



46 .      OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                   SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



     In Jakarta, corrective actions in the form of terminations, retirements, and
performance improvement plans have been initiated. While the incumbents may
have met the educational level for the job, the educational level is not high enough
to attract individuals that can successfully perform. A college degree should be
required for virtually all human resources positions. Considerable effort is being
expended to recruit, train, and retain qualified FSNs. In order to obtain the em­
ployees desired, human resources has attempted to raise the standards necessary to
fill positions. These requirements have been discussed with the Bureau of Human
Resources, Office of Overseas Employment. However, the bureau is reluctant to
raise the standards. At the time of the inspection, human resources needed an
employee to work with health insurance plans. The plans are complex and as
discussed in the Management Controls section of this report, significantly increased
oversight is required. In the current labor market the educational level evidenced
by a college degree is necessary for virtually all embassy white-collar jobs.


   Recommendation 22: The Bureau of Human Resources, in coordination
   with Embassy Jakarta, should raise job qualification standards for Foreign Ser­
   vice national employees to those necessary to recruit and retain qualified ap­
   plicants. (Action: DGHR, in coordination with Embassy Jakarta)




FINANCIAL OPERATIONS
Staffing

    The embassy’s financial management center is adequately staffed with one
American officer, two eligible family members, and 14 capable LES. With the
support of the Bangkok financial service center, the section provides satisfactory
accounting and disbursing services for the mission and Embassy Dili. Since his
arrival in August 2004, the financial management officer has made changes to
improve operations. The scores for the financial management center in OIG’s
workplace and quality of life questionnaire were high. However, some of the
management controls in the financial operations need to be strengthened.




OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   47 .

                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



       Accounts Receivable

            The payment process for some personal services in Jakarta is cumbersome. The
       billing for telephone services by the Indonesian telephone company is late most of
       the time and the service suspended if the bills are not paid within a few days of
       issuance. To ensure that employees have continuous telephone service, the em­
       bassy pays a consolidated invoice and bills the individual employees for the cost of
       their telephone service. In addition, the embassy provides home-to-office transpor­
       tation for a fee. Every month, employees receive a bill with the amount required to
       be paid. OIG’s review of the accounts receivable aging report showed some
       accounts outstanding for over 60 days and some over 100 days, which is not in
       compliance with regulations found in 4 FAH 3-H-490. The financial management
       officer is in the process of establishing a new system that will produce a consoli­
       dated bill for each employee to facilitate collection.


          Recommendation 23: Embassy Jakarta should establish procedures to con­
          solidate and collect employee debts within 30 days of billing. (Action:
          Embassy Jakarta)



          Recommendation 24: Embassy Jakarta should enforce debt collection pro­
          visions for accounts outstanding more than 90 days as required by Depart­
          ment regulations. (Action: Embassy Jakarta)


       Banking

           The agreement for the U.S. Disbursing Officer bank account is not current. The
       financial management officer has informed the Bangkok financial service center of
       the post’s desire to rebid the banking services by September 30, 2005.

       Cashiering

           Embassy Jakarta and Consulate General Surabaya are not performing the
       required unannounced cash reconciliations for most subcashiers as required by the
       regulations. In the embassy, quarterly unannounced cash reconciliations were not
       made for the majority of the subcashiers. In Surabaya, two of the subcashiers with
       advances over $1,000 were required to have monthly unannounced reconciliations;




48 .     OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




instead, quarterly reconciliations were made. 4 FAH 3- H-397.2-3 requires
monthly unannounced verifications when the advance amount is $1,000 or more
and quarterly verifications when the advance is under $1,000. OIG informally
recommended that unannounced reconciliation of advances be performed as
required.



GENERAL SERVICES
    General services operations, led by an experienced supervisory general services
officer, provide adequate service to the mission.

    The supervisory general services officer is supported by three assistant general
services officers and two facilities maintenance managers. At the time of the
inspection, there were two assistant general services officers, a mid-level officer
performing the procurement function for the first time, and a facilities maintenance
manager who was also filling in as assistant general services officer for supply and
overseeing warehouse operations. Everyone is stretched thin at this large mission.
Maintenance personnel also devoted considerable time and effort in support of
Embassy Dili. As a result, there were several management control weaknesses.

Motor Pool

    The motor pool in Jakarta is well managed by an FSN supervisor working under
the general services officer in charge of transportation. The required records were
properly maintained. The motor pool services received high scores in OIG’s
workplace and quality of life questionnaire.

     The daily usage vehicle reports in Surabaya did not accurately show vehicle
mileage usage. Some of the records showed a lower odometer count at the end of
a trip than when the trip started; others had unrecorded mileage. An informal
recommendation was made to address this issue.

International Cooperative Administrative
Support Services

   The ICASS council in Jakarta is comprised of 26 subscribers from nine U.S.
government agencies. The council operates without a current signed charter and
does not have memoranda of understanding establishing the terms and conditions



OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   49 .

                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



       of the agreement between the ICASS council and the U.S. government service
       providers required by 6 FAH-5 H-101.1. An informal recommendation was made
       to draft and sign a charter and memoranda of understanding with service providers.

           The ICASS council at post is not very effective. The council does not meet
       quarterly as recommended by 6 FAH-5 H-301.7(a), and only less than half the
       entities actively participate. Neither the DCM nor the ICASS Department repre­
       sentative have attended any meetings since their arrival, the former in July 2003
       and the latter in August 2004. As stated in 6 FAH-5 H-309, “the presence of the
       DCM on the council represents post management’s commitment to ICASS and its
       role as a change agent in streamlining administrative operations and reducing costs.
       The DCM should keep the Ambassador fully informed on ICASS matters.” At the
       time of the inspection, a new ICASS Department representative was designated.
       OIG informally recommended that the DCM attend the ICASS meetings.

           To be able to assess and comment on the overall performance of each service
       area as part of the accountability and feedback process, the Council Chairperson is
       required by 6 FAH-5 H-301.5 to prepare an annual assessment memorandum of
       service providers. No assessment has been made in the last three years. Informally,
       OIG recommended the preparation of an annual assessment memorandum of
       service providers by the ICASS Council Chairperson.




50 .     OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





                            QUALITY OF LIFE



COMMUNITY LIAISON OFFICE
    An OIG survey of mission personnel revealed that the overall level of morale
is high. Embassy Jakarta’s community liaison office (CLO) coordinator took over
the position in April 2005; consequently, the office is in a state of transition. It has
two positions, one 40 hour a week CLO and one 40-hour a week FSN assistant.
The new coordinator has considerable prior experience, having served as CLO at
several other missions including Embassy Seoul and Embassy Ljubljana. Clearly
knowledgeable about the job’s responsibilities, the coordinator is updating records
and developing plans for an active fall season. The CLO office produces a weekly
newsletter and has recently sponsored a series of dinners at a wide variety of
restaurants in Jakarta. The CLO plans to work with the human resources office
and other agencies at post to establish shared positions for family members at the
mission. In addition, with the active involvement of the Ambassador, the DCM,
and the management counselor, the CLO is trying to secure a bilateral work agree­
ment with the government of Indonesia to expand choices and opportunities for
family members



MEDICAL UNIT
    The embassy’s health unit provides medical counseling as well as first aid for all
embassy staff and primary outpatient care for mission Americans. It occupies part
of a chancery annex on the embassy compound. The unit provides care to over
1,400 employees, those who accompany them, and hundreds of temporary duty
personnel each year. Health unit staffers oversee additional medical treatment or
procedures requiring use of local services. The unit coordinates about 50 medical
evacuations a year to facilities outside Indonesia so that employees may obtain U.S.
quality health care. The unit also conducts food safety inspections at the recreation
association sponsored restaurant and mission cafeterias, as discussed separately in
this report.



OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   51 .

                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



           The staff consists of a regional medical officer, a regional medical technologist,
       a Foreign Service health practitioner, a LES medical technician, an LES part-time
       physician, four LES nurses, a medical assistant, and two receptionists. The regional
       medical officer’s geographic responsibilities include Indonesia, East Timor, New
       Zealand, Fiji, Samoa, Vanuatu, Tonga, and Kiribati. The regional medical
       technologist’s area responsibilities encompass Indonesia, East Timor, the Philip­
       pines, Singapore, Malaysia, Australia, Fiji, New Zealand, Cambodia, Thailand,
       Laos, and Vietnam. The Department’s Office of Medical Services supports the
       health unit.

            OIG review confirmed that the unit satisfies regulations governing patient
       records and controlled drugs, properly keeping them in secure containers. Some
       employees expressed concern over the quality of laboratory blood work in Indone­
       sia, especially with dengue fever risks. OIG informally recommended the embassy
       obtain an automated hematology analyzer to speed testing and alleviate anxieties.




52 .     OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





                 MANAGEMENT CONTROLS

    The annual certification of management controls for 2004 by the former Chief
of Mission, reported only the under funding of the FSN defined benefit retirement
program as a material weakness - a $3 million problem that has been substantially
resolved. There were and are, however, serious management control weaknesses in
several operational areas, particularly in contract administration, inventory control,
control of accountable forms, erroneous payment of invoices from schools in
Jakarta and Surabaya, and the community support association. The most serious
weaknesses are in contracting for health insurance.

Chief of Mission Certification

    As required, the annual Chief of Mission certification was prepared, signed,
and forwarded to the Department on July 16, 2004. However, OIG found several
major reportable weaknesses that existed during the period for which the certifica­
tion was prepared. A certification for 2005 is due in July. Conditions described
below and corrective actions taken should be reported.

Contract Management

    Contract management and administration need improvement. The health
insurance contractor is reaping considerable profits. The value of the annual
modifications to the contract exceeded the contracting officer’s warrant, and
designations to be the contracting officer’s representative for the health insurance
contract were not made. There was also no documentation available to show that
scheduled fees paid under the terms of a revised pension plan agreement were
negotiated, although it was stipulated in the agreement. Semi-annual account
reports were to be prepared and submitted by the insurer, but the requirement was
not enforced. In addition, payments to official residence expense employees were
made although proper contracts were not in effect.




OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   53 .

                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



       Health Insurance

           The health insurance contractor is earning profits far in excess of norms. In
       order to provide health and life insurance to the mission’s LES, the embassy has a
       contract with the Lippo General Insurance Company. Option year four of the
       contract for the period May 1, 2005, to April 30, 2006 was signed April 28, 2005.
       The value of the modification was about $592,692 (9,500 Rupiah = $1). The
       contracting officer’s warrant is $250,000. A waiver or approval as required by
       DOSAR 601.603-70(a)(1) had not been requested. The total value of the contract
       through the 2005-2006 modification is about $3.3 million. Prior year modifications
       also exceeded the amount of the warrant.

           Contract administration and oversight was virtually nonexistent. Reports of
       claims processed and paid by the contractor were not required by the embassy. As a
       result of OIG’s request, the contractor provided a claims summary analysis for the
       period May 1, 2003, to April 30, 2004. During this period, the contractor showed a
       net gain of about $270,000. One of the major categories of the contract was for a
       premium payment for catastrophic illness. Actual claims between 2002 and 2004
       were only about 25 percent of the premium paid of about $321,000.


         Recommendation 25: Embassy Jakarta should renegotiate contract number
         S0ID320-01-C-0010 with the health insurance contractor to provide realistic
         premium payments for health insurance categories such as catastrophic cover­
         age. (Action: Embassy Jakarta)



         Recommendation 26: Embassy Jakarta should determine if the health in­
         surance contractor’s excessive profits on contract number S0ID320-01-C­
         0010 are recoverable. (Action: Embassy Jakarta)



         Recommendation 27: Embassy Jakarta should initiate procedures to com­
         pare amounts paid by the health insurance contractor with premium payments
         made by the embassy to ensure reasonableness. (Action: Embassy Jakarta)




54 .     OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



Pension Plan

    There are two retirement plans in addition to a Civil Service retirement plan in
effect in Jakarta. An agreement for a defined contribution plan was executed with
an insurance company in September 2004. The agreement was negotiated to
complement the defined benefit plan that had been seriously mismanaged to the
point that the U.S. government was in a deficit position exceeding $3 million. The
new agreement for the contribution plan was with the same company that provided
the benefit plan. There is no documentation to show that administrative fees,
investment fees, and other charges were negotiated. In addition, provisions for
monitoring the insurer, such as preparing and submitting semi-annual account
reports, are not being fully complied with. Data provided by the insurer has been
inaccurate and rejected by the embassy.


   Recommendation 28: Embassy Jakarta should determine if the fees
   charged by the pension plan insurer for the defined contribution plan are rea­
   sonable and appropriate. (Embassy Jakarta)


Ratification

    The contracting officer’s warrant is for $250,000. The contract for health
insurance was originally awarded in 2002 and renewed annually, the latest in April
2005. The initial contract was valued in excess of $250,000. Contract files are
not well maintained. Although there is documentation to show that the Office of
the Procurement Executive disapproved the initial solicitation, there is no docu­
mentation to show that the contract was approved. In addition, waivers permitting
the contracting officer to exceed his warrant in the subsequent years when the
modifications exceeded $250,000 each year were not requested, therefore not
provided by the Office of the Procurement Executive (paragraph (a) (1) DOSAR
601.603-70). Ratification of the award is required by 14 FAM 215e.


   Recommendation 29: Embassy Jakarta should forward a request for ratifi­
   cation of all modifications of contract S0ID320-01-C-0010 to the Office of
   the Procurement Executive in accordance with Department regulations. (Ac­
   tion: Embassy Jakarta, in coordination with A/OPE)




OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   55 .

                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



       Contracting Officer’s Representative

           A contracting officer’s representative is appointed to assist in the administration
       of contracts (paragraph 642.2 Department of State Acquisition Regulations). A
       contributing factor to the weaknesses in the administration of the health insurance
       contract was the lack of a contracting officer’s representative. Neither the human
       resources officer nor the assistant human resources officer had been designated as
       the contracting officer’s representative for the health insurance contract.


          Recommendation 30: Embassy Jakarta should designate a contracting
          officer’s representative for the health insurance contract. (Action: Embassy
          Jakarta)


       Leased Vehicles

          For the last 15 months, the embassy has leased vehicles for use by the Bureau
       of Diplomatic Security’s Office of Antiterrorism Assistance Programs without
       advance approval by the Department. 14 FAM 418.8-3 requires that leases of
       program vehicles in excess of 60 days be approved in advance.


          Recommendation 31: Embassy Jakarta should request advance approval for
          vehicle leases exceeding 60 days in accordance with Department regulations.
          (Action: Embassy Jakarta)


       Control of Accountable Forms

           The officer in charge of the transportation section controls the U.S. government
       transportation requests used to procure transportation. The Foreign Affairs Manual
       requires the designation of an accountable officer to be responsible for safeguard­
       ing and controlling the issuance of government transportation requests. The
       transportation officer has not been designated as an accountable officer as required
       by 14 FAM 517.4. In Surabaya, the administrative officer is in possession of the
       blank transportation requests, although he is not a designated accountable officer.
       According to the embassy’s records, 100 government transportation request blanks
       that were sent to the consulate general could not be accounted for and were not
       reported to the Department as required by 14 FAM 517.4(b).




56 .     OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




    Recommendation 32: Embassy Jakarta should designate an accountable
    officer responsible for safeguarding and controlling the issuance of govern­
    ment transportation requests in Jakarta and Surabaya as required by Depart­
    ment regulations. (Action: Embassy Jakarta)



    Recommendation 33: Embassy Jakarta should investigate and account for
    the missing 100 government transportation requests and should report any
    lost forms to the Department as required by Department regulations. (Action:
    Embassy Jakarta)


    The transportation officer also transferred accountability of 100 blank govern­
ment transportation requests to the local travel assistant to be used as needed. In
addition, blank government bill of lading forms have been in due custody of an
FSN since his arrival in 1999. Controlled forms should be in possession of the
designated accountable officer.


    Recommendation 34: Embassy Jakarta should account for and collect blank
    government transportation requests and government bills of lading from the
    Foreign Service nationals. (Action: Embassy Jakarta)


    An inventory of government transportation requests was not done until No­
vember 2004, over a year after the arrival of the transportation officer. When
performing the inventory, the officer found that a request was missing. At the time
of the inspection the missing form had not been reported to the Department as
required in 14 FAM 517.4(c).


    Recommendation 35: Embassy Jakarta should report the lost government
    transportation request to the Department as required by Department regula­
    tions. (Action: Embassy Jakarta)


School Grants

     For the last two years, the(b) (6)(b) (6)(b) (6)(b) (6) and the (b) (6)(b) (6)
(b) (6)(b) (6)    have received grants for security upgrades. Both schools submitted
invoices that predated the grants award date for payment. The (b) (6)(b) (6)
(b) (6)(b) (6) submitted an invoice for over $40,000 for the installation of window


OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   57 .

                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




       film that was dated prior to the grant period. The film is authorized in the grant but
       was purchase eight months earlier with embassy approval after the 2002 Bali
       bombings. The (b) (6)(b) (6)(b) (6)(b) (6)(b) (6) also submitted an invoice for over
       $3,000 for installation of a fence that preceded the time period of the grant.

           While the grants to the (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6) should have
       contained an express provision indicating that it was covering pre-grant costs, both
       the grant officer and the grantee apparently agreed that the grant would cover the
       costs for the window film and the fence. One remedy would be to issue a unilateral
       grant modification document that the grant was intended to permit costs previously
       incurred by the School for physical security enhancements to be reimbursed. The
       post had not reviewed existing guidance to ensure that grant agreements expressly
       provide for the payment of pre-award costs when appropriate.


          Recommendation 36: Embassy Jakarta should issue a unilateral grant modi­
          fication document that the grant was intended to permit costs previously in­
          curred by the School for physical security enhancements to be reimbursed.
          (Action: Embassy Jakarta)



          Recommendation 37: Embassy Jakarta should implement mission wide pro­
          cedures to only process invoices submitted for payment of school grants that
          are dated within the time period of the grants or can be paid pursuant to other
          grant provisions. (Action: Embassy Jakarta)


       American Embassy Commissary and Recreation
       Association

           The American Embassy Commissary and Recreation Association was created in
       April 2005 with the merger of the American Embassy Recreation Association and
       the U.S. Embassy Association. The association provides a broad range of services
       and activities primarily for the benefit and welfare of the employees of the embassy
       and their families. Included in its operations are a commissary, a snack bar located
       in the embassy compound, and an American club located in the Field Operating
       Agency compound.




58 .     OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



    The 2003 and 2004 audited financial statements are not reliable. Losses and
expenses are overstated. The independent auditor’s report included the building
occupied by the American Club located on the Field Operating Agency compound
as an asset in the balance sheet, but the building is owned by the U.S. government.
The auditor’s report also included depreciation expense in the income statement
further distorting the results of the association’s operations. In addition, the
number of members was overstated, resulting in reported revenues that did not
exist.


   Recommendation 38: Embassy Jakarta should reissue the financial state­
   ments of the American Embassy Commissary and Recreation Association to
   reflect the correct value of its assets, liabilities, and net income. (Action:
   Embassy Jakarta)


    The commissary store occupies space on the embassy compound that could be
put to official use. The store sells very few products and many of these or similar
items are sold in modern local supermarkets at comparable prices. Some of the
items in the commissary may not be available or may be highly taxed such as
alcoholic beverages.


   Recommendation 39: Embassy Jakarta should reduce the commissary store
   operation to the sale of alcoholic beverages and any other items not available
   or which are highly taxed on the local market, move operations to a smaller
   facility, and release present store space for official use. (Action: Embassy
   Jakarta)


Fee Collection

    The rental fees received from the Mirasole property have been improperly
credited to a Bureau of Overseas Buildings Operations fund cite. 4 FAH-3 H­
321.2(a)(1) requires amounts collected for goods or services furnished to be
credited to the appropriation originally charged, in this case Diplomatic and Consu­
lar Programs. OIG informally recommended that rental fees from the Mirasole
property be credited to the Diplomatic and Consular Programs appropriation and
not to a Bureau of Overseas Buildings Operations fund cite.




OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   59 .

                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



       Representation Expenses

           Representation expenses were paid that were not allowed or were above the per
       person limits established by post. A voucher was paid for Marine Ball tickets
       purchased for a foreign diplomat. 3 FAM 3241.3(2) states “expenses for attending
       fund-raising dinners, concerts, balls, or other strictly social functions normally do
       not meet the criterion for the representation allowance and typically are prohib­
       ited.” Purchasing tickets for the Marine Ball would normally be prohibited unless
       the “highest levels of host country officials are present.” Some vouchers were paid
       that exceeded the per person guidelines as established in Management Instruction
       no. 13. An informal recommendation was made to pay only allowable representa­
       tion expenses and expenses within the mission’s established guidelines.

       Inventory Control

            Embassy Jakarta maintains a nonexpendable inventory for serviced clients and
       itself valued at over $8 million. A physical inventory (the first in many years)
       completed in March 2005 showed that record keeping had been poor and controls
       weak. Items valued at over $500,000 had not been previously recorded, and items
       valued in excess of $50,000 were deemed to be lost. Until 2004, required inven­
       tory control procedures had not been implemented. Bar coded labels and scanning
       equipment had not been used. Record keeping still needs monitoring. OIG found
       furniture items in one location - a cargo container - that were shown to be in a
       warehouse. There were no procedures in place to verify the accuracy of the loca­
       tions shown for items in storage. An informal recommendation was made to
       establish procedures for periodic locator surveys.

       Official Residence Expenses

           Official residence expense staff has received salary payments although con­
       tracts were not in existence or were unsigned. The contracts between the Ambas­
       sador and official residence expense staff members have not been drafted for eight
       months. The DCM signed two contracts at his arrival in July 2003, but two official
       residence expense employees do not have a contract. The principal officer has
       unsigned contracts drafted in Bahasa Indonesian. During the inspection, the
       human resources section was in the process of drafting the contracts. An informal
       recommendation was made to ensure that valid contracts for official residences
       household staff are in place and signed in a timely manner.




60 .     OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





            FORMAL RECOMMENDATIONS

Recommendation 1: Embassy Jakarta should resubmit its comments and ques­
  tions on vetting Indonesian police and military who are candidates for U.S. train­
  ing to the Department, and the Department should respond. (Action: Embassy
  Jakarta, in coordination with DRL, PM, and EAP)

Recommendation 2: The Bureau of Human Resources should assign entry-level
  officers to Jakarta’s consular section for two-year tours of duty. (Action:
  DGHR)

Recommendation 3: The Bureau of Human Resources, in coordination with the
  Foreign Service Institute, the Bureau of Consular Affairs, and the Bureau of
  East Asian and Pacific Affairs, should require that future consuls general meet
  the Indonesian language 3/3 standard. (Action: DGHR, in coordination with
  FSI, CA, and EAP)

Recommendation 4: Embassy Jakarta should standardize mission-wide consular
  activities. (Action: Embassy Jakarta)

Recommendation 5: Embassy Jakarta should establish a consular call center
  operation. (Action: Embassy Jakarta)

Recommendation 6: Embassy Jakarta should propose, and the Bureau of Consu­
  lar Affairs should approve, the revision of the visa reciprocity schedule for Indo­
  nesia to extend validity of exchange visitor visas from 12 to 24 months.
  (Action: Embassy Jakarta, in coordination with CA)

Recommendation 7: The Bureau of Consular Affairs should issue guidance for
  sharing visa information with Australia similar to that delineated in 03 State
  344544, Cooperation with Canada on Visa Processing. (Action: CA)

Recommendation 8: Embassy Jakarta should negotiate an agreement with a
  financial institution to collect machine-readable visa fees off site and perform
  initial data entry tasks for nonimmigrant visa applicants. (Action: Embassy
  Jakarta)




OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   61 .

                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




       Recommendation 9: Embassy Jakarta should determine whether changes to its
         compound perimeter foreclose needs for more protected waiting space. (Action:
         Embassy Jakarta)

       Recommendation 10: Embassy Jakarta should expedite use of consular improve­
         ment initiative funds for remedial construction or return the funds to the De­
         partment for other consular improvement initiative uses. (Action: Embassy
         Jakarta)

       Recommendation 11: Embassy Jakarta, in coordination with the Bureau of Over­
         seas Buildings Operations, should design and procure the installation of a wheel
         chair lift at the medical/financial management center building. (Action: Em­
         bassy Jakarta, in coordination with OBO)

       Recommendation 12: Embassy Jakarta should negotiate an agreement with the
         government of Indonesia for the use of the Field Operating Agency compound.
         (Action: Embassy Jakarta)

       Recommendation 13: Embassy Jakarta should determine if a liability exists for
         unpaid rent since the expiration of the agreement in 2001. (Action: Embassy
         Jakarta)

       Recommendation 14: Embassy Jakarta, in coordination with the Bureau of Over­
         seas Buildings Operations, should obtain an appraisal of Mirasole, property no.
         GO/OBO-R45061, obtain permission to sell the property, and place it for sale.
         (Action: Embassy Jakarta, in coordination with OBO)

       Recommendation 15: The Bureau of Overseas Buildings Operations should
         assign a project manager to review and oversee the final phases of contract
         number SALMEC-02-D-0022-0021. (Action: OBO)

       Recommendation 16: The Bureau of Administration, Office of Acquisitions
         Management should designate an individual located in Jakarta as contracting
         officer’s representative for contract SALMEC-02-D-0022-0021. (Action:
         A/LM)

       Recommendation 17: Embassy Jakarta, in coordination with the Bureau of Over­
         seas Buildings Operations and the Bureau of Administration, Office of Acquisi­
         tions Management, should determine and assess penalties for the contractor’s
         failure to perform timely work on contract number SALMEC-02-D-0022-0021.
         (Action: Embassy Jakarta, in coordination with OBO and A/LM)




62 .     OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




Recommendation 18: Embassy Jakarta, in coordination with the Bureau of Over­
  seas Buildings Operations, should locate and lease warehouse space sufficient to
  store the property of supported agencies that cannot be warehoused in the gov­
  ernment-owned warehouse (property number GO/OBO-R3400). (Action: Em­
  bassy Jakarta, in coordination with OBO)

Recommendation 19: Embassy Jakarta should include the information technol­
  ogy infrastructure resource needs in the Mission Performance Plan and the Bu­
  reau of East Asian and Pacific Affairs should provide sufficient funding to meet
  those needs. (Action: Embassy Jakarta, in coordination with EAP)

Recommendation 20: Embassy Jakarta should ask the Bureau of Information
  Resource Management to correct the errors in the reports generated by the sys­
  tem management server, and the Bureau of Information Resource Management
  should make the corrections. (Action: Embassy Jakarta, in coordination with
  IRM)

Recommendation 21: Embassy Jakarta should designate the information program
  officer as the information systems security officer for the unclassified system
  and the information systems officer as the information systems security officer
  for the classified system. A regional security officer should be designated as an
  alternate information systems security officer. (Action: Embassy Jakarta)

Recommendation 22: The Bureau of Human Resources, in coordination with
  Embassy Jakarta, should raise job qualification standards for Foreign Service
  national employees to those necessary to recruit and retain qualified applicants.
  (Action: DGHR, in coordination with Embassy Jakarta)

Recommendation 23: Embassy Jakarta should establish procedures to consoli­
  date and collect employee debts within 30 days of billing. (Action: Embassy
  Jakarta)

Recommendation 24: Embassy Jakarta should enforce debt collection provisions
  for accounts outstanding more than 90 days as required by Department regula­
  tions. (Action: Embassy Jakarta)

Recommendation 25: Embassy Jakarta should renegotiate contract number
  S0ID320-01-C-0010 with the health insurance contractor to provide realistic
  premium payments for health insurance categories such as catastrophic cover­
  age. (Action: Embassy Jakarta)




OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   63 .

                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




       Recommendation 26: Embassy Jakarta should determine if the health insurance
         contractor’s excessive profits on contract number S0ID320-01-C-0010 are
         recoverable. (Action: Embassy Jakarta)

       Recommendation 27: Embassy Jakarta should initiate procedures to compare
         amounts paid by the health insurance contractor with premium payments made
         by the embassy to ensure reasonableness. (Action: Embassy Jakarta)

       Recommendation 28: Embassy Jakarta should determine if the fees charged by
         the pension plan insurer for the defined contribution plan are reasonable and
         appropriate. (Embassy Jakarta)

       Recommendation 29: Embassy Jakarta should forward a request for ratification
         of all modifications of contract S0ID320-01-C-0010 to the Office of the Pro­
         curement Executive in accordance with Department regulations. (Action: Em­
         bassy Jakarta, in coordination with A/OPE)

       Recommendation 30: Embassy Jakarta should designate a contracting officer’s
         representative for the health insurance contract. (Action: Embassy Jakarta)

       Recommendation 31: Embassy Jakarta should request advance approval for
         vehicle leases exceeding 60 days in accordance with Department regulations.
         (Action: Embassy Jakarta)

       Recommendation 32: Embassy Jakarta should designate an accountable officer
         responsible for safeguarding and controlling the issuance of government trans­
         portation requests in Jakarta and Surabaya as required by Department regula­
         tions. (Action: Embassy Jakarta)

       Recommendation 33: Embassy Jakarta should investigate and account for the
         missing 100 government transportation requests and should report any lost
         forms to the Department as required by Department regulations. (Action: Em­
         bassy Jakarta)

       Recommendation 34: Embassy Jakarta should account for and collect blank gov­
         ernment transportation requests and government bills of lading from the Foreign
         Service nationals. (Action: Embassy Jakarta)

       Recommendation 35: Embassy Jakarta should report the lost government trans­
         portation request to the Department as required by Department regulations.
         (Action: Embassy Jakarta)




64 .     OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




Recommendation 36: Embassy Jakarta should issue a unilateral grant modifica­
  tion document that the grant was intended to permit costs previously incurred
  by the School for physical security enhancements to be reimbursed. (Action:
  Embassy Jakarta)

Recommendation 37: Embassy Jakarta should implement mission wide proce­
  dures to only process invoices submitted for payment of school grants that are
  dated within the time period of the grants or can be paid pursuant to other grant
  provisions. (Action: Embassy Jakarta)

Recommendation 38: Embassy Jakarta should reissue the financial statements of
  the American Embassy Commissary and Recreation Association to reflect the
  correct value of its assets, liabilities, and net income. (Action: Embassy
  Jakarta)

Recommendation 39: Embassy Jakarta should reduce the commissary store op­
  eration to the sale of alcoholic beverages and any other items not available or
  which are highly taxed on the local market, move operations to a smaller facility,
  and release present store space for official use. (Action: Embassy Jakarta)




OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   65 .

                   SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED





66 .   OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





         INFORMAL RECOMMENDATIONS

Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Infor­
mal recommendations will not be subject to the OIG compliance process. How­
ever, any subsequent OIG inspection or on-site compliance review will assess the
mission’s progress in implementing the informal recommendations.

Economic Section

Coordination among the economic cluster of sections and agencies at the U.S.
mission is good but could be better. Some of the FSNs working in related fields
hardly know each other.

Informal Recommendation 1: Embassy Jakarta should organize an off-site
economic conference to encourage an even more unified mission approach to
economic, commercial, agricultural, and developmental issues. Such a conference
might help to diminish the sense of separateness that offices in different buildings
engender. Consulate General Surabaya should be included.

Public Diplomacy

Although no longer a traditional lending library, the IRC is staffed by employees
who tend to think in terms of one. The staff focuses on research in response to
inquiries and concentrates on long-time traditional contacts. The IRC should make
greater efforts to increase its customer base, especially to younger audiences. The
IRC also needs to better inform mission elements of the services it can provide to
them.

Informal Recommendation 2: The Embassy Jakarta public affairs section should
develop and implement a plan to expand the use of its information resources center
services to younger Indonesians and to better inform mission elements of the
services it can provide.




OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   67 .

                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



       Consular Section

       Consular staffers in Jakarta and Surabaya would benefit from exchanging work­
       places. They could better understand dynamics in each section and standardize
       services countrywide. FSNs in Surabaya have worked in Jakarta but reciprocal
       visits have not yet taken place.

       Informal Recommendation 3: Embassy Jakarta should organize a consular
       work-exchange program with Consulate General Surabaya.

       Consular procedures differ between Embassy Jakarta and Consulate General
       Surabaya.

       Informal Recommendation 4: Embassy Jakarta should upgrade consular coordi­
       nation by preparing and using more written consular standard operating procedures
       countrywide.

       The consular sections do not have formal outreach, representation, or reporting
       plans linked to the MPP. They lack a written training strategy. Such plans help
       organize consular responsibilities and provide a framework for relating consular
       activities to larger embassy goals. They also improve task scheduling and comple­
       tion.

       Informal Recommendation 5: Embassy Jakarta should devise formal training,
       outreach, representation and reporting plans linked to the Mission Performance
       Plan.

       Visa applicants sometimes do not have correct format photos. The nearest shop
       cannot always produce photos quickly which results in appointment postponement.
       This further slows down visa processing.

       Informal Recommendation 6: Embassy Jakarta should obtain a public automatic
       photo machine/booth to help with visa processing.

       Information Management

       Currently SBU operations are housed in a lock-and-leave facility that means that an
       American must be present during all after-hours operations. This responsibility is
       currently being borne by the two individuals that are assigned to the information
       support operations.




68 .     OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




Informal Recommendation 7: Embassy Jakarta should schedule all Americans in
the information management operation to provide after-hours support for the
Sensitive-But-Unclassified facility.
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


Informal Recommendation 8: (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


Informal Recommendation 9: (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


Employees were visiting sexually explicit web sites in violation of 5 FAM 723 (6).
OIG also found movie and audio files that are not work related being stored on
government equipment.

Informal Recommendation 10: Embassy Jakarta should develop and distribute
standard operating procedures reminding employees about the consequences of
improper use of U.S. government equipment. This procedure should define the
process for identifying and reporting inappropriate use to the supervisor and the
human resources office as well as the employee.

The local change control board has not approved the use of thumb drives, and
there are no controls in place to ensure the appropriate use of this technology.

Informal Recommendation 11: Embassy Jakarta should review and approve the
use of thumb drives and develop guidelines for the control and use of this technol­
ogy.

Minor errors exist in the contingency and site security plans for the SBU network.
Additionally, the contingency plans must be coordinated with the emergency action
plan.

Informal Recommendation 12: Embassy Jakarta should correct the contingency
and site security plans. The contingency plan should be coordinated with the
emergency action plan.

The current method of reporting used by the help desk does not provide useful
information to management.




OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   69 .

                   SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



       Informal Recommendation 13: Embassy Jakarta should develop reports on help-
       desk activities that demonstrate if agreed-upon measurements are satisfied, identify
       trends, and identify potential problem areas.
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)


       Informal Recommendation 14: (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)

       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)


       Informal Recommendation 15:(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


       Informal Recommendation 16: (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


       Informal Recommendation 17: Embassy Jakarta should establish special proce­
       dures to protect medical information maintained on the system.

       International Cooperative Administrative
       Support Services

       The ICASS council operates without a current signed charter and does not have
       memoranda of understanding establishing the terms and conditions of the agree­
       ment between the council and the U.S. government service providers.

       Informal Recommendation 18: Embassy Jakarta should update the International
       Cooperative Administrative Support Services charter and memorandum of under­
       standing with the service providers.

       ICASS at post is not very effective. The attendance of the DCM to the ICASS
       meetings will show post management commitment to ICASS and its role as an
       agent of change.



70 .      OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                   SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




Informal Recommendation 19: Embassy Jakarta should require the deputy chief
of mission to attend all International Cooperative Administrative Support Services
council meetings.

To be able to assess and comment on the overall performance of each service area
as part of the accountability and feedback process, the council chairperson is
required to prepare an annual assessment memorandum of service providers. No
assessment has been made in the last three years.

Informal Recommendation 20: Embassy Jakarta should require the preparation
of an annual assessment by the International Cooperative Administrative Support
Services council chairperson.

Official Residence Expenses

Official residence staff has received salary payments although contracts were not in
existence or were unsigned. During the inspection, the human resources section
was in the process of drafting the official residence expense staff contracts.

Informal Recommendation 21: Embassy Jakarta should require that valid
contracts for official residence expense staff be in place and signed in a timely
manner.

Fee Collection

The rental fees received from the Mirasole property have been improperly credited
to a Bureau of Overseas Buildings Operations fund cite. 4 FAH-3 H-321.2(a)(1)
requires amounts collected for goods or services to be credited to the appropriation
originally charged, in this case diplomatic and consular programs.

Informal Recommendation 22: Embassy Jakarta should credit the rental fees
from the Mirasole property to the diplomatic and consular programs appropriation
and not to a Bureau of Overseas Buildings Operations fund cite.

Representation Expenses

Representation expenses were paid that were not allowed or were above the per
person limits established by post.

Informal Recommendation 23: Embassy Jakarta should pay only allowable
representation expenses and expenses within the mission’s established guidelines.

OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   71 .

                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



       Inventory Control

       Locations of warehouse furniture items shown on inventory records are inaccurate.
       Procedures were not in place to periodically verify the accuracy of locator records.

       Informal Recommendation 24: Embassy Jakarta should implement procedures
       for periodic locator surveys.

       Health Unit

       Some Embassy Jakarta employees expressed worries about the quality of laboratory
       blood work and the time required to get results in Indonesia. They specifically
       cited anxieties over the time it takes to perform analysis for diseases like dengue
       fever. Even a day’s delay in finding results could seriously affect patients. An
       automated hematology analyzer installed in the medical unit would speed testing,
       help alleviate anxieties, provide more useful data, and hasten proper treatment.

       Informal Recommendation 25: Embassy Jakarta should obtain an automated
       hematology analyzer for the health unit.




72 .     OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





                      PRINCIPAL OFFICIALS

                                                           Name                       Arrival Date

Ambassador                                             B. Lynn Pascoe                          10/04
Deputy Chief of Mission                                W. Lewis Amselem                        07/03
Consul General Surabaya                                Phillip L. Antweiler                    08/02
Principal Officer Medan                                Paul S. Berg                            08/03
Consular Agent Bali                                    Joshua N. Finch                         11/03


Chiefs of Sections:
Consular                                               Mary E. Grandfield                      02/04
Economic                                               William A. Heidt                        08/04
Management                                             J. Patrick Truhn                        06/02
Political                                              Marc Desjardins                         07/04
Public Affairs                                         Charles N. Silver                       08/03
Regional Affairs                                       A. Thys DeBruyn                         09/03
Regional Security Office                               Earl R. Miller                          07/04


Other Agencies:
Agency for International                               William Frej                            07/03
 Development
Defense Attaché Office                                 Col. Joseph Judge III                   07/03
Office of Defense Cooperation                          Col. Benny E. Woodard                   05/03
Naval Medical Research Unit-2                          Captain Mark T. Wooster                 07/04
Department of Agriculture                              Fred Kessel                             08/04
Department of Commerce                                 Margaret Keshishian                     09/02
Department of Interior,                                Alfred E. Whitehouse                    05/95
   Office of Surface Mining
Department of Justice,                                 Vacant
     International Criminal Investigative
   Training Assistance Program

OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   73 .

                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




       Department of Justice,                                Eric Gerstein                           03/05
             Legal Attaché Office
       Department of Justice,                                Benjamin Wagner                         05/05
           OPDAT
       Library of Congress                                   James Armstrong                         05/03
       Voice of America                                      Nancy Collins                           04/05




74 .     OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005


                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





                              ABBREVIATIONS

                     CA       Bureau of Consular Affairs
                   CLO        Community liaison office
                 CMAT         Consular management assistance team
                  DCM         Deputy chief of mission
          Department          Department of State
                     DS       Bureau of Diplomatic Security
                FISMA         Federal Information Security Management Act
                    FSN       Foreign Service national
                 ICASS        International Cooperative Administrative Support
                              Services
                    IRC       Information resource center
                    IRM       Bureau of Information Resource Management
                      IT      Information technology
                      IV      Immigrant visas
                    LES       Locally employed staff
                   MPP        Mission Performance Plan
                    NIV       Nonimmigrant visas
                  OBO         Bureau of Overseas Buildings Operations
                   OIG        Office of Inspector General
                 RELO         Regional English language officer
                   RSO        Regional security officer
                    SBU       Sensitive-But-Unclassified
                USAID         United States Agency for International Development
                  USIA        United States Information Agency
                   VOA        Voice of America



OIG Report No. ISP-I-05-29A, Inspection of Embassy Jakarta and CG Surabaya, Indonesia, September 2005   75 .

                   SENSITIVE BUT UNCLASSIFIED
